     Semiannual Report to Congress
     The Realities We Face:
      Continuing the Vision
            October 1, 2003 - March 31, 2004




Social Security Administration - Office of the Inspector General
 Office of the Inspector General
Mission Statement
By conducting independent and objective audits, evaluations, and
investigations, we improve the SSA programs and operations and
protect them against fraud, waste, and abuse. We provide timely,
useful, and reliable information and advice to Administration
officials, Congress, and the public.



Vision and Values
We are agents of positive change striving for continuous
improvement in SSA’s programs, operations, and management
by proactively seeking new ways to prevent and deter fraud,
waste, and abuse. We are committed to integrity and to achieving
excellence by supporting an environment that encourages
employee development and retention, and fosters diversity and
innovation, while providing a valuable public service.
October 1, 2003 — March 31, 2004                   SSA Office of the Inspector General



Message from the Acting Inspector General
In a world of constantly changing realities, the Social Security
Administration’s (SSA) Office of the Inspector General (OIG) exists to
serve as an agent of positive change for SSA and the American people. Our
criminal investigations, audit reports, and legal analyses help make Social
Security programs and operations more efficient, more effective, and more
secure. In addition, we provide assistance to homeland security efforts that
cut across the Federal Government.

No program touches more lives than Social Security. Today SSA serves
over 50 million beneficiaries and manages annual expenditures of over
$500 billion. While SSA is consistently ranked among the best in Government
for service, the stakes are far too high for either the Agency or OIG to rest
on its laurels. Thus, we continuously strive to keep SSA and its programs
efficient and effective, and free from fraud, waste, and abuse.

Henry Clay observed, “Government is a trust, and the officers of
Government are trustees; and both the trust and the trustees are created
for the benefits of the people.” As the Acting Inspector General, I share
that commitment to integrity and pride. When James G. Huse, Jr. retired in
March 2004 as Inspector General (IG), he left behind a legacy of excellence
in our organizational dynamics, structure, goals and corporate culture. I
plan to continue his bold vision through progressive partnerships, strategic
alliances and a targeted approach to fraud, waste and abuse.

This first Semiannual Report to the Congress for Fiscal Year (FY) 2004
focuses on our accomplishments for the period of October 1, 2003 through
March 31, 2004. It defines our mission, describes our significant activities,
presents our assessment of the top management issues facing SSA, and
outlines our work on these challenges.

Over the years, we have accomplished great things as a team. I look forward
to building on that record for bigger and better things to come.

Sincerely,


S
Patrick P. O’Carroll, Jr.
Acting Inspector General
               Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                      Executive Summary
                      We are proud of our successes in combating fraud, waste and abuse in SSA’s
                      programs and operations, and in providing strong support to our homeland
                      security with other Federal agencies.

                      In FY 2004, we returned up to $20 for every dollar invested in our operations.
                      In this reporting period, our investigators reported nearly $137 million in
                      investigative accomplishments with over $33 million in SSA recoveries,
                      restitution, fines, settlements, and judgments and nearly $104 million in
                      projected savings. As part of our civil monetary penalty (CMP) program, our
                      attorneys also reported over $309,000 in penalties and assessments. And
                      finally, our auditors issued 49 reports with recommendations identifying
                      over $13 million in questioned costs and almost $118 million in Federal
                      funds that could be put to better use.


                      Significant Activities
                      The Significant Activities section details our most important activities in this
                      reporting period. We continue making major strides to help SSA accomplish
                      its service and stewardship responsibilities, while we face the challenges
                      and opportunities of a leadership transition. This report highlights these
                      accomplishments and identifies areas where improvement is necessary.

                      In addition, several legislative changes have begun to impact our efforts in
                      this reporting period. They include:

                        • The Social Security Protection Act of 2004.

                        • The Homeland Security Act of 2002.

                        • The Medicare Prescription Drug Improvement and Modernization Act of
                          2003.

                      Inspector General James G. Huse, Jr. Retires

                      After more than 38 years of public service, SSA Inspector General James
                      G. Huse, Jr. retired from Federal service on March 6, 2004, completing a
                      distinguished career, beginning in 1965 as a U.S. Army officer who served
                      two combat tours in Vietnam. He joined the Secret Service and rose to
                      the position of Assistant Director. In 1996, Mr. Huse came to SSA as the
                      Assistant Inspector General for Investigations. Later, he was named Deputy
                      Inspector General at SSA and in 1998 was appointed Inspector General for
                      Social Security. Mr. Huse said, “It was a difficult decision for me to choose
                      to leave this wonderful Agency, but I take my leave with the knowledge that
                      there is great value in public service and I have never regretted following




page ii   •   Executive Summary
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General



this path for the past 38 years. There is certain wisdom in knowing the right
time to step down, and that time has come for me.”

President Nominates Patrick P. O’Carroll, Jr., to be IG

The White House designated Patrick P. O’Carroll, Jr. Acting Inspector General
on March 10, 2004, followed by an announcement on April 8, 2004 that
President George W. Bush nominated Mr. O’Carroll to be SSA’s Inspector
General. Before being named Acting IG, Mr. O’Carroll was our Assistant
Inspector General for Investigations. Earlier in his career, he worked in
the Office of Inspection at the United States Secret Service. He earned his
bachelor’s degree from Mount Saint Mary’s College and his master’s degree
from George Washington University.

Homeland Security Efforts

The Social Security number (SSN) is no longer simply used to track workers’
earnings and pay social insurance benefits. It is recognized as a de facto
national identifier, a key to social, legal, and financial assimilation into our
Nation. Protecting the SSN’s integrity is a critical part of our homeland
security efforts.

We have several initiatives under way to improve homeland security:

  • We work with congressional committees to address the threats to SSN
    integrity and advocate measures we believe can significantly reduce
    those threats.

  • We participate in a range of anti-terrorism task forces, including
    operations at critical infrastructure sites conducted across the
    country.

  • We established an SSN Integrity Protection Team to identify patterns
    and trends to better target audit work, refer cases for investigation,
    and ensure efficient, effective liaison with other relevant public and
    private sector entities.

  • We work closely with Agency representatives as participants of SSA’s
    Enumeration Response Team (ERT) to recommend and develop
    initiatives to strengthen the integrity of the SSN and SSA’s enumeration
    process.

  • We are also participating on an Identity Theft Work Group with Agency
    executives.

  • We conduct audits and make recommendations for areas in which SSA
    can further strengthen the integrity of the SSN.




                                                                  Executive Summary        •   page iii
               Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                        • We work with SSA to safeguard and protect Agency employees and
                          facilities.

                      Cooperative Disability Investigations Program

                      We manage the Cooperative Disability Investigations (CDI) program in
                      cooperation with SSA to obtain evidence that can resolve questions of fraud
                      in SSA’s disability programs.

                      Last year, the General Accounting Office (GAO) acknowledged the CDI
                      program’s successes by noting that we have increased the level of
                      resources and staff devoted to investigating Supplemental Security Income
                      (SSI) fraud and abuse. Our CDI teams identify fraud and abuse before SSI
                      benefits are approved and paid.

                      Eighteen units have been opened in 17 States since FY 1998. We hope to
                      add CDI units on a year-to-year basis, depending on available funds.

                      Civil Monetary Penalty Program

                      We administer the CMP enforcement statutes under a delegation of
                      authority from SSA’s Commissioner, which allows OIG to use CMPs against
                      certain violators of the Social Security Act. Our investigative work provides
                      an important contribution to these cases.

                      The enactment this year of the Social Security Protection Act of 2004 will
                      significantly expand our ability to utilize this valuable tool against such
                      violators, including representative payees who misuse benefits paid on
                      behalf of their client.


                      Significant Management Issues Facing SSA
                      This report describes our annual assessment of the most significant
                      management issues facing SSA. This assessment is valuable in focusing
                      congressional attention on mission-critical management problems, and
                      serves as a catalyst for resolving significant issues across the Agency.
                      Based on legislative mandates and our audit and investigative work, we
                      believe the most significant management issues currently facing SSA are
                      those described below.

                      Issue 1: Improper Payments

                      Improper payments are payments that should not have been made
                      or were made for incorrect amounts. In FY 2003, SSA issued over
                      $500 billion in payments to over 50 million individuals. Even the slightest
                      error in the overall process can result in millions of dollars in overpayments




page iv   •   Executive Summary
October 1, 2003 — March 31, 2004                  SSA Office of the Inspector General



or underpayments. Working with SSA, we have made great strides in
combating this problem, but more needs to be done.

We have a number of reviews underway concerning improper payments,
such as:

  • A review to quantify the amount of fraudulent undetected overpayments
    in SSA’s disability programs.

  • A review to determine whether SSA evaluated earnings for disabled
    individuals.

  • A review to assess overpayment waivers.

The Social Security Protection Act of 2004 expands the denial of benefits
to include both SSI and Old-Age, Survivors, and Disability Insurance
(OASDI) beneficiaries who are fugitive felons or those violating probation
or parole under Federal or State law. Our highly successful Fugitive Felon
Program assists law enforcement with locating criminals, thus making our
neighborhoods safer.

In conjunction with SSA, we have also taken aggressive action to stop
erroneous payments to deceased individuals. This includes front-end
detection of such payments and controls to prevent them, as well as
detailed investigations to locate wrongdoers when the system breaks down.
SSA agreed with our recommendation to modify its automated systems
to support Electronic Death Registration (EDR), and to continue working
on systems support for EDR. We are currently conducting a national
investigative operation in this area.

Issue 2: Management of the Disability Process
Management of the disability process is another major management
challenge for SSA. This includes the Disability Insurance (DI) and SSI
programs, which provide payments to individuals based on disability. Our
concerns were echoed by GAO when it added Federal disability programs to
its 2003 high risk list.

The Commissioner’s long-term strategy for improving the Agency’s disability
process relies on a combination of process modifications and automation,
which SSA expects to shorten disability processing times. We will continue
to evaluate these initiatives to determine their effectiveness and report to
Congress on the Agency’s progress once data is available.

Issue 3: SSN Integrity and Protection

The importance placed on SSNs and the magnitude of SSA’s enumeration
function provides a tempting motive to fraudulently acquire SSNs and use



                                                                Executive Summary       •   page v
               Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                      them for illegal purposes. In FY 2003, SSA issued over 17 million original
                      and replacement SSN cards, and received approximately $533 billion in
                      employment taxes related to earnings under the SSNs it has issued.

                      Protecting the SSN and properly posting the wages reported under each
                      SSN is critical to ensuring eligible people receive their benefits correctly.
                      Unfortunately, the SSN is often misused. Criminals can improperly
                      obtain and misuse SSNs, causing innocent individuals years of difficulty.
                      SSN misuse also impacts financial and commercial institutions, which is
                      ultimately passed on to consumers. Worse yet, SSN misuse can impact our
                      homeland security by disguising a dangerous felon or a would-be terrorist
                      as a law-abiding citizen.

                      SSA has a duty to the American public to safeguard the integrity of the
                      enumeration process. Given the magnitude of SSN misuse, we believe SSA
                      must continue to employ and enhance effective front-end controls in issuing
                      SSNs. Likewise, additional techniques, such as data mining, biometrics, and
                      updated systems processes are critical in the fight against SSN misuse. We
                      have made several recommendations and the Agency has taken steps to
                      improve procedures for ensuring SSN integrity and to strengthen its link in
                      the homeland security chain.

                      Issue 4: Critical Infrastructure Protection and Systems Security

                      The Government has a major responsibility for public health and safety.
                      Dramatic and widespread harm would result should its systems be
                      compromised. Therefore, it is imperative that the Nation’s critical information
                      infrastructure, which is essential to the operations of the economy and
                      Government, be protected.

                      SSA’s information security challenge is to understand and mitigate
                      system vulnerabilities. At SSA, this means ensuring its critical information
                      infrastructure, such as access to the Internet and the networks, is secure.
                      By improving systems security and controls, SSA will be able to use current
                      and future technology more effectively to fulfill the public’s needs. The
                      public will not use electronic access to SSA services if it does not believe
                      those systems are secure.

                      Issue 5: Budget and Performance Integration

                      To effectively meet its mission, manage its programs, and report on its
                      performance, SSA needs sound performance and financial data. Congress,
                      other external interested parties, and the general public also want sound
                      data to monitor and evaluate SSA’s performance. The Chief Financial Officer
                      Act of 1990 (CFO Act), the Government Management Reform Act of 1994,




page vi   •   Executive Summary
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



and the Government Performance and Results Act (GPRA) were passed to
create an environment of greater accountability within Federal agencies.

In accordance with GPRA, SSA sets forth its mission and strategic goals in
strategic plans, establishes yearly targets in its annual performance plan,
and reports on its performance annually. Each year, we conduct audits to
assess the reliability of SSA’s performance data and evaluate the extent to
which SSA’s performance plan describes its planned and actual performance
meaningfully.

Issue 6: Service Delivery

Service delivery to the American people poses a significant challenge that
SSA is compelled to address. The Agency’s goal of “service” encompasses
traditional and electronic services to applicants for benefits, beneficiaries,
and the general public.

We consider electronic service delivery and the integrity of the
representative payee process to be the two most significant concerns
related to SSA’s Service Delivery. Within the next 5 years, SSA expects to
provide E-government services that will give citizens, businesses and other
Government agencies the ability to easily and securely transact most of
their business with SSA electronically. The Agency will need to ensure that
its information systems and networks are accurate, reliable and secure. We
will continue to review the Agency’s progress.

Another area of concern is the Representative Payment Program. There
are about 5.3 million representative payees who manage the payments for
6.7 million beneficiaries who need their help. SSA must provide appropriate
safeguards, and we must monitor and enforce them.

We provided information to Congress during its development of the Social
Security Protection Act of 2004, which will significantly strengthen the
Representative Payee Program and our ability to deal with dishonest
representative payees. Its provisions allow imposing CMPs against
representative payees who misuse benefits paid on behalf of their clients,
and bar fugitive felons from serving as representative payees.


The Realities We Face Today
The challenges of 2004 are numerous. We are pressed by new legislative
mandates, growing demands for services, and increasing budget constraints
across the Federal Government. Notwithstanding these challenges, we will
step forward aggressively and work with SSA to combat fraud, waste and
abuse, as well as to support America’s homeland security.




                                                                 Executive Summary        •   page vii
Semiannual Report to Congress   October 1, 2003 — March 31, 2004




                The Realities We Face:
                Continuing the Vision
October 1, 2003 — March 31, 2004                               SSA Office of the Inspector General




Contents
Message from the Acting Inspector General ................................... i

Executive Summary....................................................................... ii

Introduction to Our Organization .................................................. 1

Significant Activities...................................................................... 3

      Inspector General James G. Huse, Jr. Retires ................................ 3

      President Nominates Patrick P. O’Carroll, Jr., to be IG ..................... 4

      Legislative Changes................................................................... 4

      Homeland Security Efforts.......................................................... 5

      Cooperative Disability Investigations Program ............................... 9

      Civil Monetary Penalty Program..................................................12

      Partnerships with U.S. Attorneys ................................................15

      Investigative Data....................................................................17

Significant Management Issues Facing SSA................................. 21

      Issue 1: Improper Payments .....................................................22

      Issue 2: Management of the Disability Process.............................32

      Issue 3: SSN Integrity and Protection ........................................38

      Issue 4: Critical Infrastructure Protection and Systems Security .....48

      Issue 5: Budget and Performance Integration .............................51

      Issue 6: Service Delivery .........................................................54

Appendices.................................................................................. 63
Semiannual Report to Congress   October 1, 2003 — March 31, 2004
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General



Introduction to Our Organization
The Office of the Inspector General (OIG) is comprised of our Office of
Investigations (OI), Office of Audit (OA), Office of the Chief Counsel to
the Inspector General (OCCIG), and Office of Executive Operations (OEO).
To ensure compliance with policies and procedures, internal controls,
and professional standards, we also have a comprehensive Professional
Responsibility and Quality Assurance program.


Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste,
abuse, and mismanagement in SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as OIG liaison to
the Department of Justice (DOJ) on all matters relating to the investigations
of SSA programs and personnel. OI also conducts joint investigations with
other Federal, State, and local law enforcement agencies.


Office of Audit
OA conducts and/or supervises financial and performance audits of SSA
programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits, assess
whether SSA’s financial statements fairly present SSA’s financial position,
results of operations, and cash flow. Performance audits review the
economy, efficiency, and effectiveness of SSA’s programs and operations.
OA also conducts short-term management and program evaluations and
projects on issues of concern to SSA, Congress, and the general public.


Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various
matters, including statutes, regulations, legislation, and policy directives.
OCCIG also advises the IG on investigative procedures and techniques, as
well as on legal implications and conclusions to be drawn from audit and
investigative material. Finally, OCCIG administers the CMP program.


Office of Executive Operations
OEO supports OIG by providing information resource management and
systems security. OEO also coordinates OIG’s budget, procurement,
telecommunications, facilities, and human resources. In addition, OEO is
the focal point for OIG’s strategic planning function and the development
and implementation of performance measures required by GPRA.



                                                                                           page 1
               Semiannual Report to Congress   October 1, 2003 — March 31, 2004




page 2   •   Significant Activities
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General



Significant Activities
FY 2004 is off to a very promising beginning. We continue making significant
strides in helping the Social Security Administration (SSA) accomplish
its service and stewardship responsibilities while we face the challenges
and opportunities of a leadership transition. This report highlights these
accomplishments and identifies areas where improvement is necessary.
Since SSA’s Office of the Inspector General (OIG) was created in 1995, we
have focused on a number of key issues in the fight against fraud, waste,
and abuse at SSA. We also play an integral role in protecting our Nation’s
homeland security.

The following section details several of the most significant activities in this
reporting period, including:

  • Inspector General James G. Huse, Jr. Retires

  • Legislative Changes

  • Homeland Security Efforts

  • Cooperative Disability Investigations Program

  • Civil Monetary Penalty Program

  • Partnerships with U.S. Attorneys

  • Investigative Data


Inspector General James G. Huse, Jr. Retires
After more than 38 years of public service, Inspector General (IG)
James G. Huse, Jr. retired from Federal Service on March 6th, completing
a distinguished career. Mr. Huse established a number of law enforcement
initiatives to make efficient use of OIG’s resources. Several of these
initiatives prevent fraud on the front end of SSA’s business processes. These
include our Cooperative Disability Investigations (CDI) Units that focus on
front-end disability fraud and our Identity Theft Task Forces.

He also launched a dialogue within the Federal Government on the dangers
posed by Social Security number (SSN) misuse and identity theft nearly 2½
years before the terrorist attacks of September 11, 2001. His congressional
testimony and other efforts contributed to the enactment of significant
legislation to strengthen Social Security, capped by the enactment this year
of the Social Security Protection Act of 2004. The work of 3 Congresses,
this legislation provides significant new authority to our office to protect the
SSN, SSA employees, and the Social Security Trust Funds.




                                                                   Significant Activities   •   page 3
               Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                       Mr. Huse began his career in public service with the United States Army
                       in 1965, and joined the United States Secret Service in 1970, rising to
                       the position of Assistant Director. He came to Social Security in 1996 as
                       Assistant Inspector General for Investigations, and was appointed Inspector
                       General for Social Security in 1998. Throughout his public service career in
                       the Federal Government and military, Mr. Huse received numerous awards
                       for meritorious service.


                       President Nominates Patrick P. O’Carroll, Jr., to be IG
                       The White House designated Patrick P. O’Carroll, Jr. Acting Inspector General
                       on March 10, 2004, upon the retirement of Mr. Huse. This was followed by
                       the April 8, 2004 announcement that President George W. Bush nominated
                       Mr. O’Carroll to be SSA’s Inspector General. Before being named Acting
                       IG, Mr. O’Carroll was our Assistant Inspector General for Investigations.
                       He previously served at SSA OIG as Assistant Inspector General for External
                       Affairs, Special Agent-in-Charge of Congressional Affairs, and Special
                       Agent-in-Charge of Strategic Enforcement.

                       Earlier in his career, Mr. O’Carroll worked in the Office of Inspection at the
                       United States Secret Service. He earned his bachelor’s degree from Mount
                       Saint Mary’s College and his master’s degree from George Washington
                       University. He also attended the National Cryptologic School, Georgetown
                       University, and the Kennedy School at Harvard University.


                       Legislative Changes
                       Several legislative changes have begun to impact our efforts in this reporting
                       period. They include:

                         • The Social Security Protection Act of 2004, enacted into law during
                           this reporting period, represents a significant achievement for us.
                           Our office has provided key background information for Congress as
                           it developed this legislation. It will provide significant new authority
                           to our office to protect Social Security beneficiaries, SSA employees,
                           the SSN, and the Social Security Trust Funds. We are reviewing the
                           anticipated increases in workloads this legislation mandates, especially
                           in the areas of fugitive felons and representative payees.

                         • The Medicare Prescription Drug Improvement and Modernization Act of
                           2003, which creates a prescription drug benefit program for individuals
                           eligible for Medicare, will impact our investigative and auditing
                           workload. We are working the Department of Health and Human
                           Services (HHS) to assess the potential workload expansion mandated
                           by the legislation’s enforcement provisions under its Medicare drug
                           section.


page 4   •   Significant Activities
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



  • The Homeland Security Act of 2002, which provides for granting Federal
    OIGs—including ours—the same law enforcement authorities previously
    delegated to them by the Department of Justice (DOJ), including
    authority for special agents to carry firearms, seek and execute arrest
    and search warrants, and make warrantless arrests under specified
    circumstances. It also mandates creation of an external review process
    to ensure adequate internal safeguards and management procedures.


Homeland Security Efforts
Our ongoing involvement in homeland security is required by the role the
SSN plays in establishing false identities and facilitating financial crimes
that can be used to finance terrorism. Our central function in this area is to
protect the integrity of the enumeration process and to ensure the accuracy
of SSA’s records.

The SSN is no longer simply used to track workers’ earnings and pay
social insurance benefits. It has become recognized as a de facto national
identifier, a key to social, legal, and financial assimilation into our Nation.
Protecting the SSN’s integrity is a critical part of our homeland security.

The dramatic growth in computer interconnectivity carries with it risks that
operations can be disrupted, sensitive data can be compromised, and key
processes can be interrupted. People and organizations have more tools
than ever to disrupt or sabotage important operations. Our role is vitally
important to homeland security in assisting SSA to protect its critical
infrastructure and systems security.

With that in mind, we have several initiatives under way to improve
homeland security:

  • We work with congressional committees to address the threats to SSN
    integrity and advocate measures we believe can reduce those threats
    significantly.

  • We participate in a range of anti-terrorism task forces, including
    operations at critical infrastructure sites conducted across the
    country.

  • We established an SSN Integrity Protection Team to identify patterns
    and trends to better target audit work, refer cases for investigation,
    and ensure efficient, effective liaison with other relevant public and
    private sector entities.

  • We work closely with Agency representatives as participants of SSA’s
    Enumeration Response Team (ERT) to recommend and develop
    initiatives to strengthen SSN integrity and the enumeration process.



                                                                  Significant Activities   •   page 5
               Semiannual Report to Congress                         October 1, 2003 — March 31, 2004



                         • We participate in an Identity Theft Work Group with Agency
                           executives.

                         • We conduct audits and report on areas where SSA can further
                           strengthen the integrity of the SSN.

                       Working With Congress

                       We continue to provide Congress with our assessment of developing threats
                       to the SSN’s integrity. Our body of audit and investigative work permits us
                       to give Congress our evaluation of suggested legislative changes and new
                       techniques to improve SSN security and to decrease identity theft crimes.

                       We have stressed the importance of interagency data verification and data
                       matching agreements between Federal and State agencies in our testimony
                       and other responses to Congress. While SSA issues the SSN, we all share
                       responsibility for protecting its integrity. SSA has come very far in its efforts
                       to protect the SSN and is willing to do more, but other Federal, State and
                       local jurisdictions, as well as the private sector must each do their part, too.
                       With everyone’s participation, we can protect the SSN and ultimately our
                       homeland.

                       Participating in Anti-terrorism Task Forces

                       Our office plays a key role as part of various national, regional, and local
                       anti-terrorism task forces, along with such agencies as DOJ, the Department
                       of Homeland Security (DHS), and the Federal Aviation Administration.
                       We continue to be active in the battle against terrorism because of our
                       jurisdiction with respect to the integrity and use of SSNs and the related
                       records SSA maintains.

                       The SSN Integrity Protection Team

                       There is a great deal of illicit money to be made in SSN misuse, and the
                       costs to all of us are very high. To help combat this, we are continuing the
                       efforts of our SSN Integrity Protection Team. This integrated team provides
                       a targeted approach, allowing SSA and OIG to more effectively address this
                       issue and provide assistance to SSA, Congress, the public, and other law
                       enforcement.

                       Specifically, the Team focuses its efforts on identifying patterns and trends
                       to better target audit work, referring cases for investigation, and ensuring
                       efficient and effective liaison with other relevant public and private sector
                       entities. Furthermore, the Team takes part in a number of initiatives under
                       this effort, including:

                         • The potential for cross verification of data.




page 6   •   Significant Activities
October 1, 2003 — March 31, 2004                   SSA Office of the Inspector General



  • Homeland security investigations.

  • The integrity of the enumeration process.

  • Unauthorized work in the U.S. economy.

  • Supporting SSA with regulatory and legislative actions.

The Team also acts as liaison on projects and initiatives with SSN Misuse
task forces, credit bureaus, motor vehicle administrations, the Federal
Trade Commission, credit card companies, and other entities.

Conducting Audits

We have performed several important audits to strengthen SSN integrity,
a vital component of homeland security. The review with the most direct
bearing on homeland security was a Management Advisory Report on SSA
procedures for enumerating foreign students. This study was conducted due
to concerns about vulnerabilities in our immigration system regarding entry
of individuals posing threats to national security. We evaluated SSA policies
and procedures for enumerating the 500,000 foreign students enrolled at
U.S. educational institutions in the United States during a typical academic
year. SSA generally concurred with our recommendations to continue
improving evidence requirements for assigning SSNs to foreign students
with actual jobs or offers of employment. The Agency also agreed to
coordinate with DHS in developing potential data enhancements to improve
student enumeration and monitoring.

We conducted reviews to strengthen Agency data on SSNs. Incorrect data
can conceal SSN misuse of many kinds, including threats to homeland
security. Two reviews focused on the accuracy of earnings reported to
SSA and the role of the Earnings Suspense File (ESF), which contains
information reported under name and SSN combinations that do not match
SSA records. We conducted a follow-up to a 1999 audit report that found a
relatively small number of employers account for a disproportionate share
of incorrect data in the ESF. Our review determined SSA has taken steps
to address earlier recommendations. However, the Agency still needs to do
more in establishing preventative controls to detect wage reporting errors
and irregularities. Another review recommended removing ESF wages 30
years old or older.

Congressman E. Clay Shaw, Jr., the Chairman of the House Subcommittee
on Social Security, requested we review whether SSA is properly including
military wage credits when calculating benefits. Military veterans represent
approximately one out of every four Social Security beneficiaries. Changes
in legislation have made the claims process more complex. Limitations
within SSA’s systems complicate the benefit calculation process. We noted



                                                                Significant Activities   •   page 7
               Semiannual Report to Congress                         October 1, 2003 — March 31, 2004



                       that regardless of the complexities involved in implementing legislative
                       mandates, military veterans are entitled to full credit for the service they
                       provided to the United States. SSA needs to ensure sufficient resources are
                       made available.

                       Our audit work involving SSN integrity and protection is discussed at greater
                       length under Significant Management Issues Facing SSA.

                       The following cases illustrate our efforts against terrorism in this reporting
                       period:

                       Investigation: “Lackawanna Six” Jailed for Terrorist-Related Acts

                       As part of its anti-terrorism activities in the Buffalo area, our New York
                       Field Division investigated 6 men from neighboring Lackawanna suspected
                       of terrorist-related activities. Our investigators determined the identities of
                       the “Lackawanna Six” and their attendance and participation in an al Qaeda
                       terrorist training camp in Afghanistan. One suspect had two Social Security
                       cards in his possession at the time of his arrest. All six suspects pleaded
                       guilty to providing material support or resources to designated foreign
                       terrorist organizations and received sentences of 7-10 years in prison.

                       Investigation: Ring Nets 17 Convictions, $1 Million in Restitution

                       Our Philadelphia Field Division participated in Operation Swipe Out, a large-
                       scale, anti-terrorism, white-collar crime initiative. The investigation focused
                       on the fraudulent activities of a Pakistani group involved in credit card, Social
                       Security, immigration, bank and mortgage fraud. The suspects defrauded
                       numerous credit card companies of approximately $5 million, sending some
                       of their proceeds to banks in Pakistan and Canada. For the 30 criminal
                       cases, 17 of the subjects pleaded guilty, receiving sentences ranging from
                       2 years probation to 57 months of incarceration, and being ordered to pay
                       $1,137,224 restitution. Two subjects’ cases were dismissed. The remaining
                       11 subjects are fugitives. Seven were charged with SSN misuse.

                       Investigation: Anthrax Threat Proves to be Hoax

                       Our Philadelphia Field Division and the U.S. Postal Inspection Service
                       determined that a letter addressed to a State Disability Determination
                       Services (DDS) employee, threatening the Harrisburg DDS office with
                       anthrax was a hoax. Laboratory analysis confirmed that the envelope,
                       which contained a white powdery substance, was not anthrax. The man
                       who sent it was sentenced to prison.




page 8   •   Significant Activities
October 1, 2003 — March 31, 2004                   SSA Office of the Inspector General



Investigation: Employee Sentenced to Prison for Taking Bribes
Our Atlanta Field Division, taking part in a joint homeland security airport
operation in Atlanta, found that middlemen charging up to $1,500 for Social
Security cards were sending illegal immigrants to an SSA employee to
process their applications. She accepted up to $2,000 per week over a 3½
year period, along with airplane tickets, theater tickets, and other personal
items for helping funnel more than 2,000 Social Security cards to illegal
aliens. She was sentenced to 71 months in prison, and prohibited from
holding any positions of trust and honor in the U.S. Government. More than
2 dozen other defendants indicted for the Social Security card conspiracy
are cooperating with Federal authorities.


Cooperative Disability Investigations Program
We manage the CDI program in cooperation with SSA’s Office of Operations
and Office of Disability Programs. Its mission is to obtain evidence that can
resolve questions of fraud in SSA’s disability programs.

Last year, GAO acknowledged the CDI program’s successes by noting that
we have increased the level of resources and staff devoted to investigating             GAO
SSI fraud and abuse. CDI units are composed of OI special agents and                  sees CDI
personnel from SSA’s Office of Operations, the States’ DDSs, and State
or local law enforcement. They use their combined skills and specialized
                                                                                      as critical
knowledge to:                                                                        to head off
  • Provide the DDS with investigative evidence so it can make timely and             SSI fraud
    accurate disability eligibility determinations.                                  and abuse.
  • Seek criminal and/or civil prosecution of applicants and beneficiaries
    and refer cases for consideration of civil monetary penalties (CMP) and
    administrative sanctions as appropriate.

  • Identify, investigate, and seek prosecution of doctors, lawyers,
    interpreters, and other third parties who facilitate disability fraud.

Our CDI units identify fraud and abuse before benefits are approved
and paid. Thus far, 18 units have been opened in 17 States since
Fiscal Year (FY) 1998. Depending on available funds, we hope to add CDI
units on a year-to-year basis.

The following cases and table highlight the successes of the CDI Program in
this reporting period.

Investigation: Husband and Wife Get Jail for Disability Fraud

Our Atlanta CDI Unit investigated a man who concealed his work activities
from SSA so he and his wife could continue receiving disability benefits. Our



                                                                Significant Activities   •   page 9
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                      investigators found that the man had been employed full time since 1994 as
                      a maintenance supervisor at a nuclear power plant in South Carolina. None
                      of the work activity was reported to SSA. The loss to the disability program
                      as a result of the concealed work activity was $104,533 for the man and
                      $32,564 for the wife. He and his wife were each sentenced to 21 months in
                      prison and ordered to pay full restitution to SSA.

                      Investigation: Malingering Suspect Denied Benefits Again

                      Our Nashville CDI Unit investigated a man who claimed he had disabilities
                      based on a learning disorder and back problems. He was previously denied
                      disability benefits 3 times. The man said he was unable to stand for long
                      periods of time, lift objects, or bend over. The Tennessee DDS referred
                      this matter based on his prior filings and suspected malingering. Our
                      investigators observed him taking parts off of a vehicle and putting them
                      on another. The man told the investigators he was restoring an old truck.
                      They observed him using a floor jack to raise a transmission, bending over
                      repeatedly without difficulty. His disability application was denied.

                      Investigation: Man Jailed for Double Benefits Fraud

                      An anonymous tip revealed that a man receiving benefits for an obesity
                      disability was working. Our Chicago CDI Unit determined that he had
                      worked since 1994 under a fraudulent second SSN, earning approximately
                      $60,000 per year. He also received disability benefits for a dependent child
                      based on his record. The fraud loss totaled $139,026. He was sentenced to
                      1 year of incarceration and ordered to pay SSA full restitution.

                      Investigation: Woman Works Harder Than She Claims She Can

                      Our Boston CDI Unit investigated an anonymous call alleging that a woman
                      who began receiving disability benefits in November 2001 was working at a
                      real estate office. The woman alleged disability due to chronic pain, muscle
                      spasms, depression, and anxiety. She said she needed assistance with daily
                      activities, and had difficulty lifting and carrying items due to weakness in
                      her arm. Our investigator observed the woman exiting the realty office,
                      carrying a pocketbook with her left arm and several books with her right
                      arm. A few days later, she was seen leaving a laundromat, carrying a
                      large bag of laundry unassisted to her car. A week later, she was observed
                      entering the real estate office, carrying a shoulder bag and several books.
                      Her disability benefits were ceased.

                      Investigation: Sex Offender’s Fraudulent Benefits Claim Denied

                      A 23-year-old man filed for disability benefits, alleging brain damage and
                      mental retardation caused by exposure to toxic fumes at a chemical plant.


page 10   •   Significant Activities
October 1, 2003 — March 31, 2004                                       SSA Office of the Inspector General



Our Houston CDI Unit was assisted by local police, who arrested him at a
girlfriend’s house on an outstanding felony warrant for failure to register as
a sex offender. After the arrest, our investigators found he was able to talk,
communicate well and follow directions. The man’s claim was denied.

Investigation: Cab Driver Caught Faking Disability Claim

The Richmond DDS referred a claim for investigation after it determined
that the claimant attempted to appear more impaired than she actually
was. She reported difficulty with mood swings, concentration and significant
limitations in her ability to perform activities due to multiple physical
problems and depression. Our Richmond CDI Unit observed her driving a
taxi, and confirmed that she had driven a cab approximately 12 hours a day
since June 2003. She prepared daily usage reports and was responsible for
properly reporting the money she collected from her fares. The woman’s
disability application was denied.


                    Cooperative Disability Investigations Program Results
                          October 1, 2003 through March 31, 2004


                           Allegations Confirmed SSA Recoveries SSA Savings1                            Non-SSA
            State           Received Fraud Cases & Restitution                                          Savings1
 Arizona                             57              24                    0       $1,103,450               $505,990
 California                         184            100             $20,843         $5,799,359             $4,471,195
 Colorado2                           28               1                    0          $66,500                         0
 Florida                             78              71            $44,664         $4,187,945             $2,862,119
 Georgia                            116              90          $276,655          $5,668,481             $1,679,723
 Illinois                            72              29          $310,053          $1,719,180               $674,409
 Louisiana                           92              46                    0       $2,756,000               $982,085
 Massachusetts                       55              30             $2,771         $1,632,338               $929,757
 Missouri                            81              55            $39,031         $2,940,310             $1,237,300
 New Jersey                         199              35            $67,717         $2,375,389             $1,877,585
 New York                           127              89            $34,912         $4,574,734             $5,851,530
 Ohio                               238              97            $17,869         $6,619,380             $4,334,696
 Oregon                             138              86            $42,868         $5,110,046             $3,318,835
 Tennessee                           49              43                    0       $2,711,000             $1,349,054
 Texas3                             165              95            $55,586         $5,096,218             $2,601,895
 Virginia                            79              80            $21,130         $5,150,956             $2,233,764
 Washington                         138            100                     0       $6,087,357             $5,045,549
 Totals                          1,896          1,071           $934,099        $63,598,643            $39,955,486
 1
     When a CDI investigation supports the cessation of an in-pay case, SSA program savings are calculated by multiplying
     the actual monthly benefit times 60 months. Non-SSA savings are also projected over 60 months whenever another
     governmental program withholds benefits as a result of CDI investigations, using estimated or actual benefit
     amounts documented by the responsible agency.
 2
     The new unit in Denver began operation after the reporting period ended.
 3
     Texas has 2 units, one in Dallas and the other in Houston.




                                                                                       Significant Activities             •   page 11
              Semiannual Report to Congress                        October 1, 2003 — March 31, 2004



                      Civil Monetary Penalty Program
                      OCCIG administers the CMP enforcement statutes under a delegation of
                      authority from SSA’s Commissioner, which allows OIG to impose CMPs
                      against violators of sections 1129 and 1140 of the Social Security Act.
                      Based on this delegation, we drafted and published regulations, trained
                      legal and investigative staff, and established a case screening structure to
                      implement this successful enforcement program. OI’s investigative work
  We have             provides an important contribution to these cases.
imposed over          Our enforcement efforts have been enhanced as our investigative
                      organization matures. Using our CMP enforcement tools, we have imposed
$2.6 million in
                      over $2.6 million in penalties and assessments since FY 1998. Enactment
penalties and         of the Social Security Protection Act of 2004 during this reporting period
                      will expand CMP authority into additional areas when its provisions go into
 assesments
                      effect in FY 2005.
 since 1998.
                      False Statements Under Section 1129

                      Section 1129 prohibits making false statements or representations of
                      material facts in connection with obtaining or retaining benefits or payments
                      under Titles II, VIII, or XVI of the Act. We are authorized to impose penalties
                      of up to $5,000 for each false statement or representation, as well as an
                      assessment of up to twice the amount of any resulting overpayment.

                      The following cases and table highlight our Section 1129 accomplishments
                      for this reporting period.

                      Investigation: Beneficiary’s Payee Hides Income, Agrees to CMP

                      A woman acting as the representative payee for her son, an SSI recipient,
                      claimed the only income she or her husband received was $575 per month
                      renting the lower floor of her home. Our investigation, however, revealed
                      that the subject owned both a convenience store and a cleaning service. She
                      also collected rent from a second property she owned. Prior to our receipt
                      of the case, the subject entered into an agreement with SSA to repay the
                      $19,698 overpayment. OCCIG was able to reach a settlement agreement
                      with the subject by which she will pay an additional $13,000 CMP.

                      Investigation: Representative Payee Fakes Custody Information

                      When Kansas City’s Division of Family Services took protective custody of
                      a low birth weight infant receiving SSI payments, the representative payee
                      falsely told SSA that he did not expect the child’s living arrangements to
                      change. He returned to SSA several months later for an SSI redetermination,
                      claiming the baby still lived at his address. He provided false information
                      on her medical visits and referred to the baby as his “granddaughter” when


page 12   •   Significant Activities
October 1, 2003 — March 31, 2004                  SSA Office of the Inspector General



speaking to SSA employees, though he was not related to the baby. OCCIG
imposed a $20,000 CMP and a $16,084 assessment, for a total recovery of
$36,084.

Investigation: Claimant Representative Lies to Help Clients

A claimant representative made numerous false statements to SSA in
connection with his attempt to obtain or continue DI and SSI benefits for
his clients. He altered sections, deleted information, and forged physician
signatures on medical assessment forms to indicate that conditions and
symptoms were more severe in order to obtain favorable disability hearing
decisions for his clients. He was disqualified from representing Social
Security claimants, and OCCIG imposed a $25,000 CMP.



            False Statements Under Section 1129 Results


                                    October 1, 2003 – March 31, 2004


Cases Received                                        26


CMP Cases Initiated                                   19


CMP Cases Closed                                      65


CMP Penalties and Assessments                     $309,458


Number of Hearings Requested                           3



Misleading Advertising Under Section 1140

Section 1140 prohibits the use of SSA’s program words, letters, symbols, or
emblems in advertisements or other communications in a manner that
falsely conveys SSA’s approval, endorsement, or authorization. Each
misleading communication is subject to a maximum $5,000 penalty.

Our nationwide enforcement efforts in this area continue to send a
clear message to companies that deceive senior citizens and others
under the name and reputation of Social Security. As a direct result
of OCCIG enforcement efforts, the number of Section 1140 complaints
have substantially decreased. The Social Security Protection Act of 2004,
enacted into law during this reporting period, will significantly expand our
CMP authority under Section 1140.


                                                              Significant Activities    •   page 13
              Semiannual Report to Congress                     October 1, 2003 — March 31, 2004



                      The following cases and table highlight our Section 1140 accomplishments
                      for this reporting period.



                                Misleading Advertising Under Section 1140 Results


                                                        October 1, 2003 – March 31, 2004


                        Complaints Received                               31


                        New Cases Opened                                  14


                        Cases Closed                                      15


                        No Violation                                       9


                        Voluntary Compliance                               6


                        Settlement Agreement                               0


                        Penalty/Court Action                               0


                        Hearings Requested                                 0



                      Investigation: OCCIG Makes Firm Change Misleading Letterhead

                      OCCIG received complaints from SSA employees that a private company
                      was using a misleading letterhead which contained the phrase “Social
                      Security Office” directly under the abbreviated company name. After we
                      discussed our concerns with the company, it immediately agreed to modify
                      its letterhead. In February 2004, OCCIG notified the company that due to
                      its voluntary compliance, we would not recommend enforcement action.

                      Investigation: Attorney Agrees to Halt Copycat Phone Book Listing

                      An attorney’s ad in the Yellow Pages used the words “SOCIAL SECURITY” in
                      the same typeface used on Social Security cards. The ad took the form of
                      a Social Security card with the same symbols found on an authentic card.
                      We instructed the attorney to cease and desist publishing his ad because it
                      could cause a person of ordinary intelligence to reasonably conclude that
                      the legal services were authorized, approved, or endorsed by SSA. The




page 14   •   Significant Activities
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



attorney agreed to voluntary compliance and ceased publication of this ad
in the next edition of the Yellow Pages to avoid misleading the public.


Partnerships with U.S. Attorneys
Since 2001, OCCIG attorneys have served in several United States’
Attorneys’ Offices (USAO) as Special Assistant United States Attorneys
(SAUSA). This partnership enables us to have cases that are developed
by our investigators criminally prosecuted—cases that would normally
be declined due to the limited resources of the various USAOs. OCCIG
currently has a full-time SAUSA in Los Angeles, CA and part-time SAUSAs
in New Haven, CT and Memphis, TN. In addition, OCCIG is wrapping up
several criminal cases in Phoenix, AZ.

OCCIG will continue to explore the feasibility of the SAUSA program in other
areas of the country, furthering our statutory mission through this teamwork
among OI’s investigative efforts, OCCIG attorneys, and the USAOs. SSA’s
Office of General Counsel also partners with U.S. Attorney’s Offices in several
major metropolitan areas further facilitating the successful prosecution of
OIG fraud cases. Examples of our successful SAUSA prosecutions during
this reporting period include the following:

SAUSA Prosecution: SSA Employee Sells Cards to Illegal Aliens

An SSA claims representative pleaded guilty in Los Angeles to conspiracy,
unauthorized access to a government computer, and trafficking in identity
documents following an investigation by our Los Angeles Field Division. She
admitted issuing over 500 Social Security cards to illegal aliens between
1997 and 2003, for which she received between $750 and $2,000 per card.
She will be sentenced later this year and faces up to 25 years in prison and
a fine of up to $750,000.

SAUSA Prosecution: Credit Card Scheme Nets $1,800,000

A California man and two co-conspirators conducted a credit card scheme
that defrauded hundreds of victims—including credit card companies and
private individuals—out of more than $1,800,000 in cash advances and
purchases. As a result of a Los Angeles Field Division investigation and
SAUSA efforts, he pleaded guilty to 23 criminal counts. He is facing more
than 30 years in prison and fines of over $1,750,000.

SAUSA Prosecution: Woman Loots Benefits After Son’s Death

As a result of an Atlanta Field Division investigation and SAUSA prosecution
in Tennessee, a woman who served as a representative payee for her minor
son was convicted of misusing an SSN and making false statements after



                                                                Significant Activities    •   page 15
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                      she failed to report her son’s death and continued to collect his benefits.
                      As part of her scheme to continue receiving his benefits, she had another
                      minor pretend to be her deceased son in an interview with SSA. The woman
                      was sentenced to 5 months in prison and ordered to pay SSA restitution of
                      $10,814.

                      SAUSA Prosecution: Mother to Repay $200,000, Faces Jail

                      An Arizona family received more than $200,000 in SSI payments between
                      1990 and 2003 for the mother and all 6 of her children, based on various
                      alleged mental and learning disabilities. Our Los Angeles Field Division
                      investigation revealed that many of the children not only attended college,
                      but excelled academically. Also, several of the children captained community
                      and school-based sports teams. As a result of a plea agreement, the mother
                      agreed to make full restitution, and could spend more than 4 years in prison
                      after she is sentenced later this year.

                      SAUSA Prosecution: Nephew Guilty in Looting Bank Account

                      After a Boston Field Division investigation and SAUSA efforts, a Connecticut
                      man pleaded guilty to the theft of $62,280 in Social Security benefits.
                      Our investigation revealed that the defendant stole benefits from his
                      deceased aunt’s bank account for over 7 years. He faces up to 10 years of
                      imprisonment and a maximum fine of $250,000. The subject has agreed to
                      make full restitution.




page 16   •   Significant Activities
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General




Investigative Data
The following tables represent the collective efforts of our OI Headquarters
and Field Divisions, including our SSA OIG Fraud Hotline. In this reporting
period, we received 37,524 allegations from various sources cutting across
SSA programs. Our Allegation Management Division operates the Fraud
Hotline, and has made great strides since its inception in the early days of
OIG. Our Fraud Hotline referrals to SSA offices resulted in the identification
of over $1 million in overpayments that were posted to SSA records. We also
identified nearly $3 million in savings from referrals to SSA that resulted
in suspension or termination of benefits to individuals who were no longer
entitled or eligible to receive these benefits.

We also worked on multi-agency investigations that resulted in over $77.5
million in savings, restitution and recoveries for other agencies. This money
is not included in the charts that follow.



                                                                Significant Activities    •   page 17
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004




                                                      Funds Reported


                                                                       October 1, 2003 -
                                                                        March 31, 2004

                                                                          SSA Funds

                       Scheduled Recoveries                                        $20,044,724


                       Fines                                                          $315,517


                       Settlements/Judgments                                          $587,509


                       Restitution                                                 $12,075,852


                       Estimated Savings                                          $103,805,060


                       TOTALS                                                    $136,828,662




                                                Investigative Results


                                                                    October 1, 2003 -
                                                                     March 31, 2004

                       Allegations Received                                            37,524

                       Cases Opened                                                        4,776

                       Cases Closed                                                        5,107

                       Arrests/Indictments                                                 2,293

                       Total Judicial Actions                                              1,428

                        Criminal Convictions                                               1,213

                        Civil/CMP                                                             43

                        Illegal Alien Apprehensions                                          172




page 18   •   Significant Activities
October 1, 2003 — March 31, 2004               SSA Office of the Inspector General




                    Allegations Received by Category


                                           October 1, 2003 -
                                            March 31, 2004

 SSI Disability                                                  17,268

 Disability Insurance                                            10,871

 SSN                                                              5,067

 Old Age and Survivors Insurance                                  2,555

 Other                                                            1,198

 Employee                                                           350

 SSI Aged                                                           215

 TOTALS                                                         37,524




                     Allegations Received by Source


                                           October 1, 2003 -
                                            March 31, 2004

 Law Enforcement                                                 11,479

 Anonymous                                                        9,703

 SSA Employees                                                    7,672

 Private Citizens                                                 7,583

 Beneficiaries                                                      626

 Public Agencies                                                    451

 Other                                                                10

 TOTALS                                                         37,524




                                                           Significant Activities    •   page 19
              Semiannual Report to Congress   October 1, 2003 — March 31, 2004




page 20   •   Management Issues
October 1, 2003 — March 31, 2004                  SSA Office of the Inspector General



Significant Management Issues Facing SSA
Every year we assess the most significant management issues facing SSA.
This process is valuable in focusing congressional attention on mission-
critical management problems and serves as a catalyst for resolving
significant issues across the Agency. Based on legislative mandates and our
audit and investigative work, we believe the most significant management
issues currently facing SSA are:

  1. Improper Payments

  2. Management of the Disability Process

  3. SSN Integrity and Protection

  4. Critical Infrastructure Protection and Systems Security

  5. Budget and Performance Integration

  6. Service Delivery

We have discussed these issues with SSA and acknowledge that the Agency
has made progress in these areas.

The following section discusses each of these critical management issues
facing SSA, as well as our related audit and investigative work for this
reporting period.




                                                                Management Issues •     page 21
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     Issue 1: Improper Payments
                     SSA is responsible for issuing benefit payments under the OASDI and SSI
                     programs. In FY 2003, SSA issued over $500 billion in benefit payments
                     to over 50 million beneficiaries. Considering the volume and amount of
                     payments the Agency makes each month, even the slightest error in
                     the overall process can result in millions of dollars in overpayments or
                     underpayments.

                     Improper payments are defined as payments that should not have been
                     made or were made for incorrect amounts. Examples of improper payments
                     include:

                       • Inadvertent errors.

                       • Payments for unsupported or inadequately supported claims.

                       • Payments for services not rendered.

                       • Payments to ineligible beneficiaries.

                     The risk of improper payments increases in programs with:

                       • A significant volume of transactions.

                       • Complex criteria for computing payments.

                       • An overemphasis on expediting payments.

                     Since SSA is responsible for issuing timely benefit payments for complex
                     entitlement programs to over 50 million individuals, the Agency is at-risk of
                     making significant improper payments.

                     The President and Congress have expressed interest in measuring the
                     universe of improper payments within the Government. Specifically, in
                     August 2001, OMB published the FY 2002 President’s Management Agenda
                     (PMA), which included a Government-wide initiative for improving financial
                     performance. In November 2002, the Improper Payments Information Act of
                     2002 was enacted, and OMB issued guidance in May 2003 on implementing
                     this new law.

                     Under this law, agencies that administer programs where the risk of
                     improper payments is significant must estimate their annual amount of
                     improper payments and report this information in their Performance and
                     Accountability Report for FYs ending on or after September 30, 2004. OMB
                     will use this information, while working with the agencies, to establish
                     goals for reducing erroneous payments for each program. (SSA included
                     information on its improper payments for the OASDI and SSI programs in
                     its FY 2003 Performance and Accountability Report, which was issued in
                     November 2003.)


page 22   •   Management Issues
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



SSA and OIG have had ongoing discussions on improper payments—on such
issues as detected versus undetected improper payments and avoidable
overpayments versus unavoidable overpayments which are outside the
Agency’s control and a “cost of doing business.” In August 2003, OMB
issued specific guidance to SSA to only include avoidable overpayments
in the Agency’s improper payment estimate because these payments
could be reduced through changes in administrative actions. Unavoidable
overpayments that result from legal or policy requirements are not to be
included in SSA’s improper payment estimate.

SSA has undertaken many projects to identify and improve areas where                       The
it could do more to reduce improper payments and/or recover amounts
overpaid. Specifically, SSA has been working to improve its ability to prevent
                                                                                     slightest error
overpayments and underpayments by obtaining beneficiary information                     can result
from independent sources sooner and/or using technology more effectively.
In this regard, SSA has initiated new computer matching agreements,
                                                                                       in millions
obtained on-line access to wage and income data, and implemented                      of dollars in
improvements in its debt recovery program. Also, SSA’s continuing disability
review process is in place to prevent improper benefit payments to those
                                                                                     overpayments
who are no longer disabled.                                                             or under-
Working with SSA, we have made great strides in reducing benefit payments              payments.
to prisoners and SSI payments to fugitive felons, and these efforts continue.
However, improper payments, including those to deceased beneficiaries,
students, and individuals receiving State workers’ compensation (WC)
benefits, continue to diminish the Social Security Trust Funds.

Our audit work on improper payments in this reporting period has included
the following.

Audit Report: Impact on SSA’s Programs When Auxiliary
Beneficiaries Have Incorrect SSNs

Our objective was to determine the impact on SSA programs when auxiliary
beneficiaries have incorrect SSNs on their Master Beneficiary Records
(MBR).

Auxiliary beneficiaries are children, widows, spouses, and parents who
receive OASDI benefits based on another wage earner’s Social Security
record. As such, the primary wage earner’s SSN—not the auxiliary
beneficiary’s SSN—is used to track the auxiliary beneficiary’s benefit
payments on the MBR.

Many of SSA’s systems use SSNs to control information about individuals. For
example, death reports, SSI records, and earnings records are associated
with the SSNs of the individuals to whom the information pertains. Because
this information can affect an individual’s entitlement to benefits, SSA


                                                                  Management Issues •      page 23
              Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                     routinely compares or matches this information to its payment files to
                     ensure payment accuracy.

                     SSA’s ability to ensure payment accuracy in both the OASDI and SSI
                     programs is impacted when auxiliary beneficiaries do not have their correct
                     SSNs on the primary wage earner’s MBR. During our audit, we identified
                     about $1.1 million in improper payments due to incorrect auxiliary SSNs on
                     the MBR. This $1.1 million consisted of the following:

                       • $398,141 in OASDI benefits improperly paid because the auxiliary
                         beneficiaries’ earnings were not considered in determining their OASDI
                         benefit amount.

                       • $325,872 in OASDI benefits improperly paid because of the deaths of
                         auxiliary beneficiaries.

                       • $448,275 in improper SSI payments because the auxiliary beneficiaries’
                         OASDI benefits were not recognized as income when their SSI
                         payments were calculated.

                     It is important that SSA take all cost effective steps to ensure      payment
                     accuracy within its programs—especially in light of SSA’s Strategic   Goals for
                     FY 2004, which includes a goal to ensure “Superior stewardship        of Social
                     Security programs and resources.” To help meet this goal, SSA         hopes to
                     prevent erroneous payments and increase the accuracy of its           earnings
                     records.

                     To improve the Agency’s stewardship of Social Security programs, we made
                     4 recommendations to SSA—which the Agency agreed to implement.

                     Audit Report: SSA Controls Over the Taxation and Suspension of
                     Payments to Foreign Beneficiaries

                     According to the 1983 amendments to the Social Security Act, SSA must,
                     under certain conditions, withhold benefit payments to non-citizens when
                     they leave the United States for 6 consecutive months. Additionally,
                     payments cannot be made to beneficiaries residing in certain countries. The
                     Social Security Act also requires SSA to withhold taxes from the monthly
                     benefit payments of certain non-citizens living outside the U.S. The
                     objective of our audit was to determine how effectively SSA meets these
                     requirements.

                     We found SSA has not consistently applied alien tax withholding provisions
                     as required by law or its own policy, nor has it withheld benefits from certain
                     non-resident beneficiaries as required by Agency guidelines. In addition,
                     SSA has not obtained or kept required documentation in cases where it
                     does not withhold taxes from resident aliens who live outside the country.
                     This lack of documentation offers little assurance that resident aliens are


page 24   •   Management Issues
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



aware of their obligation to file tax returns with the Internal Revenue Service
(IRS) and pay any taxes due. Finally, SSA relies on unreliable electronic
data in determining whether to pay non-resident beneficiaries. The control
weaknesses we found resulted in errors to the Social Security Trust Funds
of approximately $112 million since 1984.

To prevent further loss of revenue and maintain integrity of its databases,
we recommended SSA:

  • Identify and resolve cases of errors made in applying alien withholding
    tax provisions or paying benefits to non-citizens living abroad.

  • Establish policy and procedures to ensure that beneficiaries either pay
    required taxes or submit missing documentation.

  • Periodically review input transactions that update alien information on
    the MBR for compliance with policy and procedures.

  • Use existing applications to ensure that non-resident beneficiary
    payments are suspended if required documentation is not received.

  • Consider software changes to prevent updates to alien information on
    the MBR if the update conflicts with other MBR data fields, or if key
    data fields like country of citizenship are blank or shown as unknown.

SSA agreed with these recommendations. We also recommended SSA
evaluate policies and procedures regarding retroactive alien taxes due to
determine if any changes are needed to comply with statutory law and
regulations. However, we could not determine whether SSA and IRS ever
reached an agreement on this issue. We believe that SSA needs to clarify
its responsibility to IRS in the alien taxation process, and ensure that taxes
due are collected as required by law. We modified this recommendation to
take SSA’s concerns into consideration.

We further recommended SSA consider establishing a software application
to collect and transmit residency and citizenship information received from
non-resident beneficiaries. While SSA concurred with this recommendation
and considered a software application to collect SSA Form SSA-21
information (Supplement To Claim Of Person Outside The United States), it
disagreed with the recommendation’s objective.

Audit Report: Social Security Funds Held in Dormant Bank
Accounts

Our objectives were to determine the amount of Social Security funds held
in dormant bank accounts for beneficiaries in the New York region who were
determined to be deceased based on recent investigations, and whether
SSA could recover these funds.



                                                                   Management Issues •    page 25
              Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                     Our New York Field Division investigated 95 beneficiaries whom SSA was
                     unable to locate. We identified 15 accounts with no official evidence of
                     the individuals’ deaths or whereabouts, and concluded that they were
                     deceased. The bank accounts for these beneficiaries, who had been
                     receiving OASDI benefits through direct deposit as their only activity for
                     many years, contained over $1.3 million. Our analysis concluded that SSA
                     deposited $1,069,159 into these beneficiaries’ accounts after the dates we
                     determined to be their dates of death, based on investigations and bank
                     records. Other OI regions have identified eight similar cases with bank
                     accounts totaling $538,139.

                     Under the policy in place at the time of the audit, the Agency initiated
                     a Department of the Treasury reclamation procedure when it learned a
                     beneficiary was deceased and Social Security funds were erroneously paid
                     into the beneficiary’s bank account. For those beneficiaries missing and
                     believed to be dead without an official notice of death, SSA presumed the
                     person’s death when payments had been suspended for 7 years. Once a
                     reclamation request was electronically initiated, Treasury will attempt to
                     reclaim an amount equal to the last 6 years’ worth of erroneous payments
                     from the financial institution involved. Reclamations had not been initiated
                     for the 15 cases identified by OI since benefits had been suspended only
                     since 2002.

                     We determined that according to Treasury policies, SSA may initiate bank
                     reclamations for beneficiaries it presumes are deceased. Retrieval of funds
                     in dormant bank accounts would not subject a beneficiary to any penalty,
                     since proof of a beneficiary’s living status would entitle him or her to any
                     benefits recovered by SSA. We believe that the Agency’s inaction may
                     risk the loss of funds paid to beneficiaries determined to be dead due to
                     the statute of limitations being established by Treasury for reclamation
                     procedures and/or the escheatment of the funds to a State.

                     We recommended that SSA:

                       • Change its policy regarding the presumption of death for purposes of
                         reclaiming erroneously paid funds to eliminate the need for having
                         benefits suspended for 7 years where evidence to presume a person’s
                         death exists.

                       • Use its revised policy to establish dates of death for the 15 beneficiaries
                         highlighted in our report and the other 8 similar cases investigated.

                       • Initiate Treasury reclamations to retrieve SSA funds held in the dormant
                         bank accounts of the beneficiaries highlighted in our report.




page 26   •   Management Issues
October 1, 2003 — March 31, 2004                  SSA Office of the Inspector General



  • Request that the HHS Centers for Medicare and Medicaid Services
    return all of the Medicare premium payments made on behalf of the
    beneficiaries identified in our report.

SSA supports the recommendations for changing its policy, and ensuring
that benefit payments and Medicare premiums paid after the death of a
beneficiary are recovered and returned to the Social Security Trust Funds.


Investigative Project: Replacement Check Fraud
In the past year, we initiated an aggressive investigative project into
replacement check fraud that has resulted in the prosecution of numerous
individuals. Our investigators and auditors have found that a number of
people attempted to cash their Social Security check, and then asked for
replacement checks to be issued, falsely claiming they never received
the original checks. SSA revised its procedures to improve controls over
replacement checks and its recovery of related overpayments. We will
continue to monitor such initiatives as they are implemented. The Agency is
also developing a marketing strategy to increase use of direct deposit.

The following are examples of our successful replacement check fraud
investigations during this reporting period:

Investigation: SSA Employee Conspires With Beneficiaries

Our New York Field Division investigated a suspect who admitted to being
part of an immediate payment scheme conducted by an SSA employee. Our
investigators found that during a 16-month period, she issued approximately
35 immediate payment checks to 3 individuals who otherwise would not
have been entitled, with the agreement she would split the proceeds with
them. Total fraud loss to SSA was $22,446, which SSA recovered through
administrative action to withhold the beneficiaries’ checks. The employee
voluntarily resigned from her position at SSA, and was sentenced to
6 months home confinement, 5 years probation, 100 hours community
service, and $2,100 in fines and assessment fees.

Investigation: Seven Join Replacement Check Scheme

A group of 7 representative payees who received a combined 20 SSI checks
each month engaged in a replacement check fraud scheme. Our Atlanta
Field Division determined they repeatedly called the SSA toll-free number to
fraudulently report non-receipt of their legitimate monthly checks, and then
cashed the duplicate checks when they arrived. One was incarcerated, and
the remaining 6 were sentenced to varying terms of probation. All 7 were
ordered to pay restitution totaling $48,655 to SSA.




                                                                Management Issues •     page 27
               Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                      Investigation: Beneficiary Files 15 Fraudulent Non-receipt Claims
                      Our New York Field Division investigated a Syracuse man as part of
                      “Operation Payback,” an ongoing investigative initiative targeting individuals
                      who have filed multiple false non-receipt claims of their benefit checks.
                      Our investigators determined that he filed 15 non-receipt claims during
                      60 months. He received a total of $7,161 in benefits to which he was not
                      entitled. Through administrative recovery action, SSA recovered $2,624,
                      leaving a loss of $4,537. He was incarcerated.


                      Investigative Project: Payments to Deceased Persons
    We                In conjunction with SSA, we are currently conducting aggressive national
                      operations to stop erroneous payments to deceased individuals. This
   believe            includes front-end detection of such payments and controls to prevent
 paying the           them, as well as detailed investigations to locate wrongdoers when the
                      system breaks down. We believe that paying the right person the right
right person          amount of benefits is paramount. Payments made to deceased individuals
  the right           undermine public trust and confidence in SSA’s programs.

  amount is           The following are examples of our successful investigations to halt payments
                      to deceased beneficiaries in this reporting period:
paramount.
                      Investigation: Grandfather Murdered for Benefits and Apartment

                      The New York City Police Department (NYPD) asked our New York Field
                      Division for help locating an SSA beneficiary missing since August 1997
                      and believed dead. The investigation determined that the missing man had
                      been murdered in a scheme to keep his apartment and collect his benefits.
                      We subsequently helped approximate the date of death by determining
                      SSA benefits paid to the victim after his disappearance by comparing the
                      signatures and fingerprints on SSA checks obtained by the NYPD Forensic
                      Evidence Laboratory. Though the body was not recovered, the beneficiary’s
                      grandson was convicted of second degree murder, grand larceny, and
                      forgery. He was sentenced to 32-37 years in prison.

                      Investigation: Payee Dumps Body, Keeps Benefits

                      A Tennessee woman acting as her 87-year-old mother’s representative
                      payee gave the mother a fatal dose of Percocet and drove her around in
                      a car until the older woman died, dumping her body along a highway in
                      North Carolina. Our Atlanta Field Division and the Tennessee Bureau of
                      Investigation determined that the woman continued to receive her mother’s
                      Social Security benefits and WC checks, amounting to over $28,000.
                      Pleading guilty to reckless homicide, abusing a corpse, and theft, the
                      daughter was sentenced to 5 years in prison.



page 28   •   Management Issues
October 1, 2003 — March 31, 2004                  SSA Office of the Inspector General



Investigation: Deceased Payee Project Catches $201,000 Theft
Under our national deceased payee project, our New York Field Division
investigated a man who cashed his deceased mother’s Social Security
checks from October 1971 to December 2002. Our investigators arrested
him for theft of government funds, and he pleaded guilty. He was sentenced
to a year in prison, ordered to pay restitution to SSA for the last 5 years
of payments, totaling $39,974. The total amount of the overpayment was
$201,000.

Investigation: Representative Payee Impersonates Deceased Aunt

A California woman who was the representative payee for her aunt
did not inform SSA of her aunt’s death in February 1980. Instead, the
woman impersonated her aunt during an SSA home visit and attempted
to do so again when interviewed by our agents. Our Los Angeles Field
Division determined that the aunt’s benefits were direct deposited into a
joint checking account held by the representative payee. Due to her age,
the defendant was sentenced to 3 years probation and 6 months home
detention. She was also ordered to pay restitution of $160,740 to SSA.

Investigation: Son Forges Checks, Steals Dead Mother’s Benefits

Our Los Angeles Field Division received information that a beneficiary in
current pay status as a widow was possibly deceased. She died on November
17, 1991, but her benefits continued to be paid until November 2001. Our
investigators determined that her son forged his mother’s signature on
her checks and used his mother’s SSA benefits. The son admitted that
he phoned SSA and arranged for his mother’s benefits to be electronically
deposited into a checking account he shared with her. He was sentenced to
10 months in prison and ordered to pay $95,493 in restitution to SSA.

Investigation: Anonymous Hotline Tip Leads to Arrest

An anonymous hotline tip led our Seattle Field Division to investigate an
Oregon woman whose mother received benefits and died in December
1990. Our investigators found that the daughter had not notified SSA of
her death, and continued using her mother’s benefits through frequent
ATM withdrawals totaling $123,041 from a joint bank account she had
maintained with her mother. She was sentenced to a year in prison and
ordered to pay full restitution to SSA.


Investigative Project: Fugitive Felon Program
We instituted our Fugitive Felon Program to implement provisions of the
Welfare Reform Act, Public Law (P.L.) 104-193 denying SSI for fugitive



                                                                Management Issues •     page 29
              Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                     felons and for probation and parole violators, and providing for the exchange
                     of certain SSI information with law enforcement agencies under specified
                     conditions. Such fugitives are denied Federal assistance and parallel aid is
                     also provided to law enforcement for their apprehension. Thus, in these
                     cases the apprehension of such a person who is fleeing either prosecution or
                     punishment can be as important as a conviction in other kinds of cases.

                     The Fugitive Felon Program uses automated data matches to compare
                     warrant information from the National Crime Information Center (NCIC), the
                     Federal Bureau of Investigation (FBI), the United States Marshals Service
                     (USMS) and State agencies with SSA’s SSI rolls. SSA currently has data
                     matching agreements with numerous States and police departments, and is
                     still pursuing such agreements with other States. We continue working with
                     SSA to further refine and enhance the automated process.

                     SSA data contributed to law enforcement agencies arresting 3,329
                     fugitives in this reporting period—and over 19,000 arrests since the
                     program’s inception in 1996. However, with passage of the Social Security
                     Protection Act of 2004, we estimate our monthly workloads will increase
                     substantially.

                     Investigation: One of “America’s Most Wanted” Arrested

                     A Florida man wanted for killing a local pastor was featured on “America’s Most
                     Wanted” on November 22, 2003. NCIC submitted his arrest warrant to our
                     Fugitive Felon Program. Our investigation discovered that the fugitive’s SSI
                     record indicated he had recently changed his address to a homeless shelter
                     in San Diego, California. A citizen contacted the police after recognizing the
                     man from a “wanted” flier our Los Angeles Field Division and the San Diego
                     Violent Crimes Task Force distributed. The fugitive was arrested near the
                     shelter minutes later. His SSI payments were terminated.

                     Investigation: SSI Applicant Has Outstanding Warrant for Arrest

                     The Springfield SSA office became suspicious about the identity of a woman
                     who had applied for and was receiving SSI payments. Our St. Louis Field
                     Division found the woman had an outstanding warrant for her arrest under
                     another name for failure to appear on firearms and drug-related charges.
                     Our investigators determined that the warrant, dated October 9, 1996,
                     made her ineligible for all of the SSI payments she had received using
                     the fraudulent identity. The overpayment amount was $26,159. She was
                     sentenced to 15 months in prison for SSN misuse.




page 30   •   Management Issues
October 1, 2003 — March 31, 2004                 SSA Office of the Inspector General



Investigation: Fugitive Wanted for Aggravated Assault Caught
Our Chicago Field Division arrested a fugitive felon SSI recipient from
Ohio who had recently fled to Chicago, based on an outstanding warrant
for aggravated assault. She was identified as a fugitive felon through our
matching agreement with NCIC. Prior to her arrest, she talked and laughed
to herself, but became responsive and acted normally after being told she
was under arrest. She explained that she acted that way to convince SSA
employees that she was “crazy,” but said she no longer wanted to receive
SSI payments because it was becoming too difficult for her to “act crazy”
each time she visited SSA.




                                                               Management Issues •     page 31
              Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                     Issue 2: Management of the Disability Process
                     SSA administers the DI and SSI programs that provide benefits based on
                     disability. Most disability claims are initially processed through a network
                     of Social Security field offices (FO) and State DDSs. SSA representatives
                     in the FOs are responsible for obtaining applications for disability benefits
                     and verifying non-medical eligibility requirements, which may include age,
                     employment, marital status, or Social Security coverage information among
                     other factors. After initial processing, the FO sends the case to a DDS for
                     evaluation of disability.

                     DDSs, which SSA fully reimburses, are State agencies responsible for
                     developing medical evidence and rendering the determination of whether
                     the claimant is disabled or blind. After the DDS makes the disability
                     determination, it returns the case to the FO for appropriate action depending
                     on whether the claim is allowed or denied. In FY 2003, over 2.5 million initial
                     disability claims were processed, and the average processing time was
    DI and           97 days.
 SSI programs        Once SSA establishes an individual is eligible for disability benefits under
   provide           either the DI or SSI program, the Agency turns its efforts toward ensuring
                     the individual continues to receive benefits only as long as SSA’s eligibility
   benefits          criteria are met. Disability benefits will not continue if any of the following
   based on          occur:

  disability.          • A Continuing Disability Review (CDR) shows that the individual’s
                         impairments have medically improved and that he or she no longer
                         meets SSA’s disability criteria (subject to certain exceptions).

                       • A SSI beneficiary returns to work and has income over SSA’s allowable
                         amount or a SSDI beneficiary demonstrates the ability to engage in
                         substantial gainful activity for a sustained period of time.

                       • A child receiving SSI payments turns 18 years old and, upon mandatory
                         redetermination, is not considered disabled under adult criteria.

                       • Other non-medical factors of eligibility are no longer met.

                     If an individual disagrees with DDS decisions on his/her claim or continuing
                     disability review, the claimant can then appeal to SSA’s Office of Hearings
                     and Appeals (OHA). OHA is responsible for holding hearings and issuing
                     decisions in the Agency’s appeals process. OHA’s field structure consists
                     of 10 regional offices and 139 hearing offices. ALJs hold hearings and
                     issue decisions in hearing offices nationwide. In FY 2003, hearings offices
                     processed 571,928 cases, and the average processing time was 344 days.

                     Over the last several years, the Agency has tested improvements to the
                     disability claims process as a result of concerns about the timeliness and


page 32   •   Management Issues
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General



quality of customer service. These initiatives did not result in significant
improvements in the disability claims process. In January 2003, GAO added
the modernizing of Federal disability programs—including SSA’s—to its
2003 high-risk list due, in part, to outmoded concepts of disability, lengthy
processing times, and decisional inconsistencies.

In September 2003, the Commissioner proposed a new approach for
improving the disability determination process and making the right
decision as early in the process as possible. The approach includes several
initiatives that emphasize timely and accurate decisions. For example, a
quick decision step would initially sort claims based on information provided
by claimants in order to identify people who are obviously disabled. The
expedited claim would be processed by the Expert Review Units, allowing
for timely decisions and focusing DDS resources to more
complex claims. In addition, an in-line quality review
process managed by the DDSs and a centralized quality
control unit would replace the current SSA quality control
system to quickly identify problem areas and implement
corrective actions and related training. The Commissioner’s
approach was developed after considering information
provided by SSA and DDS employees, interested
organizations, private disability insurers, the Social Security
Advisory Board, and others. The Commissioner views her
September 2003 announcement of the approach as the first
step in a collaborative process eventually leading to a final
plan for disability improvements. She has stated that she
plans to work with the Administration, Congress, the DDSs and interested
organizations and advocacy groups before arriving at a final plan of action.
Concurrent with the new approach, the Commissioner plans to conduct
several demonstration projects to help people with disabilities return to
work.

In addition to her long-term strategy, the Commissioner has accelerated
the Agency’s transition to the electronic disability folder stating that it is
critical to improving SSA’s disability process. The electronic disability folder
will allow for disability claims information to be stored electronically and
transmitted between FOs, DDSs, and OHA.

Fraud is an inherent risk in SSA’s disability programs. Some unscrupulous
people view SSA’s disability benefits as money waiting to be taken. A key
risk factor in the disability program is individuals who feign or exaggerate
symptoms to become eligible for disability benefits. Another key risk factor
is the monitoring of medical improvements for disabled individuals to
ensure those individuals who are no longer disabled are removed from the
disability rolls.



                                                                    Management Issues •    page 33
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     SSA and OIG have taken an active, cooperative role in addressing the
                     integrity of the disability programs through the CDI program. The CDI
                     program’s mission is to obtain evidence that can resolve questions of
                     fraud in SSA’s disability programs. SSA’s Offices of Operations, Disability
                     Programs, and Disability Determinations, along with OIG, manage the CDI
                     program. There are 18 CDI units operating in 17 States. In this reporting
                     period, the CDI units saved SSA almost $64 million by identifying fraud and
                     abuse related to initial and continuing claims within the disability program.

                     Our audit work in this reporting period on the management of the disability
                     process has included the following.

                     Evaluation: Appeals Council Process Improvement Action Plan

                     Our objective was to assess the effectiveness of the seven short-term
                     initiatives of the Appeals Council Process Improvement (ACPI) Action Plan.

                     During the 1990s, the Appeals Council’s workload grew dramatically and
                     there was also a significant increase in the time it took claimants to receive
                     a final decision. The requests for review increased from 69,000 in FY 1994
                     to 115,000 in FY 1999. The average processing time in FY 1994 was 118
                     days. In FY 1999, the average processing time was 458 days.

                     To address the increased workload and processing times, the Deputy
                     Commissioner for Disability and Income Security Programs released the
                     ACPI in March 2000. The plan contained short-term initiatives for achieving
                     higher productivity, lower processing time, and improved public service.
                     The initiatives were designed to get the number of pending cases to 16,224
                     and processing days to 90 by September 30, 2003.

                     It was not possible to determine the effectiveness of the short-term
                     initiatives. Although the Office of Appellate Operations (OAO) pending
                     workload and processing days decreased, some of the decrease was
                     attributable to ACPI and some to the decrease in requests for reviews. The
                     extent that ACPI contributed cannot be measured in its entirety since OAO
                     did not track all the initiatives. Two initiatives were tracked, four were not
                     measurable, and one was not implemented.

                     As of September 30, 2003, the number of pending cases was 51,078
                     and processing days was 294, higher than the ACPI goals. As part of
                     the differential case management initiative, the Appeals Council placed
                     a heightened emphasis on processing aged requests. OAO established
                     an aged-case task force. Its goals were to clear all ready-to-work aged
                     requests for review, reduce processing time, reduce pending cases, and
                     improve public service. The aged-case task force made recommendations
                     on 4,536 aged cases during its 4 months.




page 34   •   Management Issues
October 1, 2003 — March 31, 2004                   SSA Office of the Inspector General



We are encouraged that OHA is making progress, but it appears that the goals
were too ambitious to be achieved within the time frames established.

OHA employees who responded to our questionnaire had mixed opinions on
quality of service to claimants and case processing efficiency. In responding
to our questionnaire, 194 employees offered suggestions for reducing the
pending workload and 200 employees offered ideas to reduce processing
times.

We recommended that SSA measure the actual dispositions for each of
the initiatives prospectively, to better determine which ones are working
best and shift resources accordingly. SSA partially agreed, noting that our
recommendation urged measuring the initiatives prospectively. As a result,
we do not expect SSA to measure initiatives which have ended.

We also recommended that SSA:

  • Consider the use of an aged case task force to process cases older than
    2 years.

  • Develop goals that have a much higher possibility of achievement.

  • Consider suggestions in our report made by employees to reduce
    pending workload and processing days.

SSA agreed with these 3 recommendations.

Audit Report: SSA’s Oversight of Indirect Costs Claimed by State
DDSs

The objective of our review was to determine whether SSA’s oversight
of indirect costs claimed by DDSs was adequate to ensure that the costs
benefit its disability programs equitably.

SSA reimburses DDSs for 100 percent of allowable expenditures incurred
in making disability determinations under the DI and SSI programs. The
expenditures include both direct and indirect costs. Direct costs are those
that are readily identifiable to the DDS, such as the costs incurred to
purchase medical services. Indirect costs arise from activities that benefit
multiple State and Federal agencies but are not readily identifiable to the
DDS. They include services, such as accounting, auditing, budgeting, and
payroll that benefit all agencies in a State.

In accordance with OMB Circular A-87, Cost Principles for State, Local and
Indian Tribal Governments, States can allocate indirect costs to the Federal
Government based on the terms of an indirect cost rate and/or a cost
allocation plan (rate/plan). For FYs 1998 through 2002, SSA reimbursed
DDSs about $489 million for indirect costs.



                                                                 Management Issues •     page 35
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     Our review disclosed opportunities for SSA to improve its oversight of
                     indirect costs claimed by DDSs to ensure that SSA funds obligated by DDSs
                     through the indirect cost process benefit SSA’s disability programs and
                     are equitably distributed to its programs. The Agency’s current oversight
                     process relies on the cognizant Federal agencies to represent SSA’s interest
                     in the rate/plan review, negotiation, and approval processes. However, the
                     cognizant agencies’ process is not designed to represent SSA’s interest to
                     the extent that it would identify all incorrect or inequitable indirect cost
                     allocations to DDSs.

                     SSA delegates indirect cost oversight responsibilities to its regional offices
                     (RO), but SSA did not ensure that the ROs had the detailed knowledge
                     needed to oversee the complicated process. SSA relies extensively on State
                     and Federal audits to identify and correct problems with the approved
                     rate/plan and to ensure the rate/plan is properly executed by the DDSs.
                     However, State and Federal audits do not provide annual audit coverage of
                     indirect costs charged to SSA by DDSs.

                     We recommended SSA establish an indirect cost oversight process that
                     ensures adequate technical expertise to evaluate allocation methodologies
                     and to represent Agency interests during the indirect cost negotiation
                     process. SSA stated that establishing such an indirect cost oversight process
                     appears difficult and wasteful of its limited resources, given the stewardship
                     currently performed by cognizant Federal agencies on indirect costs. SSA
                     also stated that additional oversight of indirect costs should be performed
                     by OIG rather than by SSA.

                     The following are examples of our successful disability fraud investigations
                     during this reporting period:

                     Investigation: Man Has Wife Murdered, Claims Survivors Benefits

                     The New York District Attorney’s office asked our New York Field Division to
                     help investigate a man who filed for SSA survivors benefits for himself and
                     his infant son days after hiring a hit man to kill his wife. Our investigators
                     worked closely with SSA in determining the man’s claim information and
                     benefit status, in part to show his motivation for the murder. During the
                     8-day trial, prosecutors charged that he had his wife murdered to gain
                     custody of their son. He was sentenced to life without the possibility of
                     parole, and the hit man received 20 years’ incarceration.

                     Investigation: Daughter Pockets Mother’s Nursing Home Payments

                     Our Chicago Field Division investigated information received from a nursing
                     home in Indianapolis, that a resident had not had her nursing home bill paid
                     in 2 years. Our investigators determined that the victim received SSI and



page 36   •   Management Issues
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



Social Security benefits. The money was direct deposited into a joint savings
account with her daughter, who would withdraw it each month and deposit
it into her own personal checking account. The daughter used her mother’s
benefit money over a 4-year period to purchase two homes and pay her
own bills. She received a 3-year suspended sentence, and was ordered to
pay restitution of $19,800 to SSA and the remainder to her mother.

Investigation: Deported Alien Returns, Caught Seeking Claim

A man claiming to be a legal resident alien filed for Social Security benefits
that had previously been halted due to his incarceration. Our Dallas Field
Division and Bureau of Immigration and Customs Enforcement (ICE)
investigators determined that he had been deported in 2003, after his release
from prison in Minnesota for criminal sexual conduct involving a minor. He
pleaded guilty to being in the United States illegally after deportation for an
aggravated felony, and was sentenced to 41 months in prison. After serving
his sentence he will be returned to DHS for deportation.

Investigation: Crooked Contractor Nabbed for Benefits Fraud

Our Philadelphia Field Division investigated a representative payee who
concealed his income from SSA because it would have affected his wife and
son’s SSI eligibility. Our investigators found that the man solicited home
improvement work and obtained cash down-payments of over $40,000
from customers, but never completed the work he was hired to do. He also
prohibited his wife from speaking with SSA representatives during eligibility
re-determinations, speaking on her behalf and providing false information
on their household income. He was sentenced to 5 months imprisonment,
to be served concurrently with a State sentences, and ordered to pay SSA
restitution of $17,125.




                                                                   Management Issues •    page 37
               Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                      Issue 3: SSN Integrity and Protection
                      The SSN is the single most widely used identifier for Federal and State
                      Governments, as well as the private sector. In FY 2003, SSA issued over
                      17 million original and replacement SSN cards, and SSA received
                      approximately $533 billion in employment taxes related to earnings under
                      issued SSNs. Protecting the SSN and properly posting the wages reported
                      under SSNs are critical to ensuring eligible individuals receive the full
  The SSN             retirement, survivor and/or disability benefits due them.
 has become           The SSN has become a key to social, legal, and financial assimilation in
 valuable as          this country. Because the SSN is so heavily relied upon as an identifier, it is
                      valuable as an illegal commodity. Criminals improperly obtain SSNs in many
  an illegal          ways:
 commodity.             • Presenting false documentation to SSA.

                        • Stealing another person’s SSN.

                        • Purchasing an SSN on the black market.

                        • Using the SSN of a deceased individual.

                        • Creating a nine-digit number randomly.

                      We believe strengthening SSN integrity is one way in which SSA can make
                      an important contribution to reducing the myriad of identity fraud schemes
                      and potential threats to homeland security.

                      To ensure SSN integrity, SSA must focus on three stages of protection—
                      when the SSN card is issued, during the life of the SSN cardholder, and upon
                      the SSN cardholder’s death.

                      SSA must employ effective front-end controls in its enumeration process.
                      Likewise, additional techniques such as data mining, biometrics, and
                      enhanced systems controls are critical in the fight against SSN misuse.

                      To effectively combat SSN misuse, we believe SSA should:

                        • Establish a reasonable threshold for the number of replacement SSN
                          cards an individual may obtain during a year and over a lifetime.

                        • Continue to address identified weaknesses within its information
                          security environment to better safeguard SSNs.

                      In the past we have reported that it is critical for SSA to independently verify
                      the authenticity of documents presented by SSN applicants. The Agency has
                      taken significant steps to address this issue, including the establishment of
                      SSA’s ERT to address the integrity and protection of the SSN. As part of this




page 38   •   Management Issues
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General



task force, we made recommendations which the Agency adopted. Among
the many results of the task force’s efforts are:

  • SSA stopped assigning SSNs to non-citizens without first verifying the
    authenticity of their documents.

  • The Agency tightened evidentiary requirements for SSN applicants.

  • SSA began requiring mandatory interviews for all applicants for
    original SSNs over the age of 12 and requires evidence of identity for
    all children, regardless of age.

SSA has taken several additional steps, including:

  • The Agency established a pilot center in Brooklyn, New York that
    focuses exclusively on enumeration.

  • SSA implemented the enumeration at entry process, a voluntary
    program designed to allow certain classes of immigrants to apply
    for Social Security cards as a part of the immigration process.
    This process may also assist in preventing fraud and ensuring
    SSN integrity because SSA receives enumeration information
    directly from the Department of State (DOS) and DHS, preventing
    SSA employees from having to verify immigration documents.

  • The Agency now verifies information on refugees through DOS.

  • SSA has begun an educational campaign to inform the wage reporting
    community of error detection tools, including electronic reporting,
    available prior to submitting entire wage reports.

  • SSA is also developing fact sheets and posters encouraging number
    holders to keep their Social Security card in a safe place and not carry
    it with them.

  • Recently, the Agency also created an Identity Theft Work Group in
    which we are participating with Agency executives.

The Agency also recently implemented Long Term Modernized Enumeration
System Fraud Enhancements and related policy changes. SSA’s new system
enhancements prevent issuance of an original SSN to a child under age 18
when a parent files an application based on a fictitious identity document.
Additionally, another of the enhancements will prevent issuance of an
original Social Security card to a child under age 18 when a parent files SSN
applications for an improbable number of children.

The integrity of the SSN is also related to SSA’s process for posting workers’
earnings. The proper posting of earnings ensures that eligible individuals
receive the full retirement, survivor and/or disability benefits due them.
If earnings information is reported incorrectly or not reported at all, SSA


                                                                   Management Issues •     page 39
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     cannot ensure all eligible individuals are receiving the correct payment
                     amounts. In addition, SSA’s disability programs under the DI and/or SSI
                     provisions depend on this earnings information to determine whether an
                     individual is eligible for benefits and the amount of the disability payment.

                     SSA spends scarce resources trying to correct the earnings data when
                     incorrect information is reported. The ESF is the Agency’s record of annual
                     wage reports for which wage earners’ names and SSNs fail to match
                     SSA’s records. Between 1937 and 2001, the ESF grew to represent about
                     $421 billion in wages, which included approximately 244 million wage
                     items with an invalid name and SSN combination. As of October 2003,
                     SSA had posted 9.6 million wage items to the ESF for Tax Year (TY) 2001,
                     representing about $56 billion in wages. This was prior to some planned
                     edits, which may have further reduced this number.

                     While SSA has limited control over the factors that cause the volume of
                     erroneous wage reports submitted each year, there are still areas where
                     the Agency can improve its processes. SSA can improve wage reporting
                     by educating employers on reporting criteria, identifying and resolving
                     employer reporting problems, and encouraging greater use of the Agency’s
                     SSN verification programs. SSA also needs to improve coordination with
                     other Federal agencies with separate, yet related, mandates. For example,
                     the Agency now collaborates with IRS to achieve more accurate wage
                     reporting.

                     SSA has taken steps over the past year to reduce the size and growth
                     of the ESF. For example, SSA has expanded its Employee Verification
                     Service by piloting an on-line service called the Social Security Number
                     Verification Service, which allows employers to verify the names and SSNs
                     of employees prior to reporting their wages to SSA. The Agency has also
                     modified its automated processes to better identify the number holder
                     related to suspended items. Whereas previous internal edits used only
                     the name and SSN related to the suspended wage, SSA stated that the
                     new processes would use information stored on the earnings and benefits
                     records. Moreover, the Agency has established a performance goal to
                     remove 30 million items from the ESF by 2005.

                     As part of our efforts to protect the SSN, OIG implemented the SSN
                     Integrity Protection Team. This Team represents an integrated approach
                     that combines the talents of our auditors, investigators, computer
                     specialists, analysts, and attorneys. In addition to supporting homeland
                     security initiatives, this group focuses its efforts on:

                       • Identifying patterns and trends of SSN misuse.

                       • Locating systemic weaknesses that contribute to SSN misuse in the
                         enumeration and earnings-related processes.


page 40   •   Management Issues
October 1, 2003 — March 31, 2004                   SSA Office of the Inspector General



  • Recommending legislative or other corrective actions to ensure the
    SSN’s integrity.

  • Pursuing criminal and civil enforcement provisions for individuals
    misusing SSNs.

This Team will also partner with external private and public sector
organizations not only to educate, but to pursue mutually beneficial
activities to prevent and detect fraudulent use of SSNs.

In this reporting period, we conducted the following reviews in this area.

Management Advisory Report: SSA’s Procedures for Enumerating
Foreign Students

Due to concerns about vulnerabilities in our immigration system that allow
the entry of individuals posing threats to national security, we evaluated
SSA’s policies and procedures for enumerating foreign students to ensure
that foreign-born individuals entering the United States with student visas
are not misusing the process. Over 500,000 foreign students enrolled at
educational institutions in the United States during the 2001-2002 academic
year. Given the large number of foreign students who enroll in schools each
year, we believe SSA must employ effective controls in its assignment of
SSNs.

As part of our review, we visited schools that were providing work
authorization letters used to enumerate foreign students, and found that
the schools did not always document an offer of actual employment. The
integrity of the enumeration process would be strengthened if SSA required
schools to verify actual employment before issuing letters to students
authorizing that they receive SSNs. SSA has proposed a new regulation that
would require additional work authorization documentation from schools
prior to enumerating foreign students.

In addition, DHS has implemented the Student and Exchange Visitor
Information System (SEVIS) to provide a means of monitoring students’
status. As SEVIS is developed into a database for all foreign students, SSA
has an opportunity to work with DHS in developing SEVIS into a reliable
control system to ensure students are enrolled and enumerated students
are working. SSA should also consider enhancements to its own systems
to provide SSN and other pertinent data for its own use and use by other
Government agencies as permissible by law.

Our recommendations to SSA included:

  • Continuing its efforts to improve the evidence requirements for
    assigning SSNs to foreign student who have actual jobs or offers of
    employment.


                                                                 Management Issues •     page 41
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                       • Coordinating with DHS in the development of potential data
                         enhancements that could improve the enumeration and monitoring
                         processes for students.

                     SSA generally concurred with our recommendations.

                     Audit Report: Utility of Older Reinstated Wages from the ESF

                     Title II of the Social Security Act requires that SSA maintain records of wage
                     amounts employers pay to individuals. Employers report their employees’
                     wages to SSA at the conclusion of each tax year. Wages on those employer
                     reports containing invalid names and/or SSNs cannot be posted to an
                     individual’s earnings record in SSA’s Master Earnings File. Instead, these
                     wages are placed in the ESF—a repository for unmatched wages. Suspended
                     wages can affect a worker’s eligibility for and/or the amount of retirement,
                     disability, or survivor benefits. Wages can be reinstated from the ESF to an
                     individual’s earnings record once the correct name and SSN is determined.
                     SSA reinstates these wages through automated and manual processes.
                     We reviewed the SWEEP automated process and the itemized correction
                     manual process because these actions were more likely to relate to older
                     reinstatements.

                     Our report indicated that removing ESF wages 30 years or older would
                     impact approximately 0.07 percent of the individuals awarded benefits in
                     Calendar Year 1999. In those cases where a beneficiary was impacted, the
                     reduction in benefits would have been an average of $4.22 per month. We
                     found that:

                       • The manual processes reinstated approximately 70 percent of the
                         wages that led to reduced benefits, and the remaining 30 percent
                         involved SWEEP edits.

                       • Most of the manual actions did not adequately document the evidence
                         provided by an individual, such as a W-2, that later may have led to
                         reinstated wages. As a result, we could not determine whether the
                         wages in the ESF were necessary before the wage information was
                         posted to the earnings record.

                       • The full impact of the SWEEP edits may be difficult to determine since
                         not all of the reinstatements were captured in SSA’s management
                         information system.

                       • SSA has implemented a new software edit that may increase the
                         usefulness of this older information in the ESF.

                     We recommended and SSA agreed to:




page 42   •   Management Issues
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General



  • Modify the current edit processes so a record of all individuals impacted
    by SWEEP reinstatements is captured in the ESF Reinstates File.

  • Consider removing wages that are 30 years or older from the ESF after
    SSA completes its planned reinstatement efforts, since we believe
    SSA can safely remove these wages without hindering the Agency’s
    programs and operations.

Congressional Response Report: Title II Beneficiaries with Military
Earnings
On August 11, 2003, Congressman E. Clay Shaw, Jr., the Chairman of the
House Subcommittee on Social Security, requested OIG review whether
SSA is properly including military wage credits when calculating benefits.
We provided the Chairman with a report containing information related to:

  • The number of military veterans receiving SSA benefits.

  • The complexities of the legal and regulatory environment.

  • Potential SSA systems limitations that need to be considered in
    correcting underpayments/overpayments.

  • The status of any open OIG recommendations from previous reviews of
    military earnings.

  • SSA’s  planned       approach     to   resolve    any     underpayments/
    overpayments.

Military personnel have been covered under Social Security since 1957.
Although Social Security benefits are based on average lifetime earnings,
members of the military receive special credits that augment their earnings
for the purpose of computing Social Security benefits. The Congress enacted
special credits because it believed that the military earnings reported to SSA
were too low and, without the credits, Social Security benefits for veterans
and their dependents would also be too low. Congress has also provided
special credits for veterans who served before the military was brought
under the Social Security system.

In our report, we noted that military veterans represent approximately
one out of every four Social Security beneficiaries. A number of changes in
legislation have attempted to provide these veterans with equitable benefits
when compared to the rest of the population. However, these changes have
also made the claims process more complex. Furthermore, limitations
within SSA’s systems complicate the benefit calculation process. Currently,
SSA is working to identify military veterans who may have errors in their
previous benefit calculation and resolve these problems.




                                                                   Management Issues •     page 43
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     Finally, we noted that regardless of the complexities involved in implementing
                     legislative mandates, military veterans are entitled to full credit for the
                     service they provided to the United States. Based on projections in a 1997
                     review, military earnings errors in Fiscal Year 1995 caused approximately
                     $52 million in payment errors. If similar errors have occurred over the years,
                     they could have a significant impact on benefit computations. Furthermore,
                     since many of the veterans who may be impacted by these recalculations
                     are among the Agency’s older beneficiaries, SSA management will need to
   Military          ensure sufficient resources are made available to expedite this work.
 veterans are
                     Follow-Up Review of Employers with the Most Suspended Wage
  entitled to        Items
full credit for      In September 1999, we issued an audit report that identified the
  the service        100 employers with the most suspended wage items from TYs 1993 through
                     1996. We concluded that a relatively small number of employers account for
they provide.        a disproportionate share of the items and dollars in the ESF. The ESF contains
                     wage items reported under name and SSN combinations that do not match
                     SSA’s records. In our initial report, we made four recommendations.

                     In our report, we reviewed the reporting accuracy of the top 100 employers
                     identified in the original report for our follow-up period, TYs 1997 to 2000.
                     This report noted that of the original 100 employers, 40 were still in the
                     top 100 listing for the follow-up period and the remaining 60 were not. In
                     comparing the reporting accuracy of the 60 employers not on the follow-up
                     list, we found that 14 employers had increased their reporting accuracy,
                     19 reported decreased accuracy, and 27 employers did not have sufficient
                     wage items in TY 2000 to determine whether the reporting accuracy was
                     better or worse.

                     Our review also determined that SSA has taken steps to address two of
                     our earlier recommendations through its efforts to assist employers and
                     hold them accountable for their wage reporting. However, we believe SSA
                     still needs to do more in establishing preventative controls to detect wage
                     reporting errors and irregularities. Therefore, our report recommended that
                     SSA establish preventative controls to detect these errors and irregularities,
                     including using information from a recently established management
                     information system, the Earnings Data Warehouse. SSA agreed.

                     Management Advisory Report: Security Features on the Social
                     Security Card

                     We shared with SSA our concern that the “VOID” security feature imprinted
                     on original Social Security cards may cause confusion in the employer
                     community and may not be fully understood by Agency employees tasked
                     with assisting these employers. Based on conversations with officials at


page 44   •   Management Issues
October 1, 2003 — March 31, 2004                   SSA Office of the Inspector General



a large employer, we found that valid Social Security cards were being
mistaken for invalid cards because the “VOID” language could be seen on
the surface of original cards. Though this language should appear only on
photocopies, a close inspection by some employers detected this wording
on original cards. As a result, the employer turned away a number of
job applicants, and the corporate office discouraged any further hiring of
individuals with such cards until SSA confirmed their validity.

We brought this to SSA’s attention and offered our concerns. SSA agreed
that continued use of the VOID pattern on the Social Security card is no
longer a useful security feature and has arranged to remove it from the
next printing of the card. The Agency also agreed that field employees
should be familiar with the security features of the card and will update
the appropriate Agency operations manual sections and provide training
addressing changes to the security features when the card is printed.

The following are examples of our successful SSN misuse investigations
during this reporting period:

Investigation: SSN Fraud Leads to String of Crimes, Jail Sentence

A woman indicted in 3 Alabama counties for theft, welfare fraud, forgery,
possession of a forged instrument, identity theft, and perjury received one
of the first State convictions under the new Alabama Consumer Identity
Protection Act. Our Atlanta Field Division investigators established that she
stole identification documents from victims, obtained Social Security cards
and State identification, and then obtained welfare benefits under the false
identities. We provided testimony on the fraudulent issuance of replacement
Social Security cards for a woman whose identity the suspect stole. She was
sentenced to 10 years in prison and ordered to pay restitution of $7,954 in
welfare benefits that she derived from her scheme.

Investigation: Joint Inquiry Blocks Million-Dollar Art Fraud

Our Seattle Field Division, the Seattle Police Department and the London
Metropolitan Police investigated an international art and antiques fraud
involving the purchase and attempted purchase of over a million dollars
worth of art and antiques from Europe. Our investigators determined that a
man who had reported being a victim of identity theft to cover his fraudulent
activity used a stolen SSN to open up bank accounts in the United States.
He traveled to Europe and made purchases with insufficiently-funded
checks to European antique dealers, after negotiating in person and over
the Internet. After being arrested by our agents and Seattle Police officers,
he pleaded guilty to two counts of SSN Misuse and two counts of wire fraud.
He was sentenced to 41 months in prison and ordered to pay $146,248 in
restitution.


                                                                 Management Issues •     page 45
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     Investigation: SSN Fraud Ring Leads to Murder Arrest
                     Our Chicago Field Division took part in a 3-day inter-agency undercover
                     operation that resulted in the arrest of 12 suspects dealing in fraudulently
                     obtained Social Security cards, State driver’s licenses, and U.S. passports.
                     Our investigators determined that the group’s male leader and 11 women
                     took part in an elaborate document-counterfeiting scheme to get valid SSNs
                     for non-existent children. The names belonged to undocumented Nigerian
                     citizens who paid up to $5,000 each for valid documents. The leader, a career
                     criminal with an extensive criminal history, was released under house arrest
                     for his cooperation in the undercover operation. He was later arrested trying
                     to flee to Poland for murdering an SSI recipient in an attempt to fake his
                     own death. Two other bodies were found buried. The leader died in custody
                     from medical complications. Others in the group were sentenced to up to 2
                     years in prison or given immunity from prosecution for their cooperation in
                     the undercover sting.

                     Investigation: Search Produces Social Security Cards

                     Our Chicago Field Division investigated a man who attempted to obtain
                     a U.S. passport under an assumed name. Our investigators found that
                     his criminal history dated back to 1987 and included forgery, credit card
                     misuse, counterfeiting and receipt of stolen property. He was previously
                     ordered deported from the United States but granted asylum to comply with
                     the United Nations restrictions regarding torture. A subsequent interview
                     and further investigation found that the man was using the name of a
                     Social Security beneficiary for whom he worked as a caretaker. A search
                     of the suspect’s residence produced two computers, blank birth certificates
                     with signatures and seals, Social Security cards and dozens of credit cards
                     in various names. He had also applied for school and personal loans in
                     the victim’s name. He was sentenced to 6½ years in prison, ordered to
                     pay restitution of $7,784 to SSA, and after serving his sentence he will be
                     turned over to DHS for review of his asylum status.
  Most SSA
  employees          Investigative Challenge: Employee SSN Fraud
      are            It only takes a few corrupt employees to compromise the integrity of the
                     Social Security system and undermine the public’s confidence in SSA’s
 trustworthy,        programs. Although the vast majority of SSA’s over 60,000 employees
   but OIG           are trustworthy, dedicated civil servants, OIG remains vigilant. As the
                     illicit demand for SSNs increases the profitability of taking part in schemes
   remains           to provide genuine Social Security identification illegally to fraudulent
   vigilant.         applicants, our investigators and auditors have found that increasing
                     numbers of SSA employees have succumbed to this temptation. The




page 46   •   Management Issues
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



detection of employees committing SSN fraud is an investigative priority,
although it comprises very few allegations and cases.

Examples of our successful investigations in this area during this reporting
period include the following:

Investigation: Employee Loses $1 Million, Home, Freedom

Our Boston Field Division, along with ICE, the U.S. Postal Inspection Service,
and the State Police, investigated a $4.3 million document ring that provided
Social Security cards, driver’s licenses and learner’s
permits from the Massachusetts Registry of Motor
Vehicles to illegal aliens. Our investigators determined
that an SSA employee facilitated the issuance of over
1,700 fraudulent Social Security cards for approximately
$1,000 each. The SSA employee would process and
approve fraudulent applications, and the cards were
mailed to Texas, Massachusetts, and elsewhere. The
SSA employee lost his job, was sentenced to 71 months
in prison, and was ordered to forfeit $1 million and his
residence in Lake Dallas, Texas. Three co-defendants
were also sentenced to as much as 63 months in prison,
and another was given probation and home confinement.
The remaining defendant is currently a fugitive.

Investigation: SSA Employee Sentenced With SSN Fraud Ring

An SSA employee was found in a suspicious car with its driver, 10 completed
Social Security card applications, and 24 SSA receipts for accepted
applications during an arrest at SSA’s Greenbelt, MD office. Our Philadelphia
Field Division determined that the employee accepted $200 each for
entering information applications into the Agency’s computer database
to generate receipts indicating that the applicant’s SSN would be sent
within two weeks. During the course of the scheme, the employee received
30-40 applications and was paid approximately $8,000. He was sentenced
to a year in prison. The ringleader was given a 2-year sentence and the
driver received 6 months.




                                                                  Management Issues •     page 47
              Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                     Issue 4: Critical Infrastructure Protection and
                     Systems Security
                     The Government has a major responsibility for public health and
                     safety. Dramatic and widespread harm would result should its systems
                     be compromised. Therefore, it is imperative that the Nation’s critical
                     information infrastructure, which is essential to the operations of the
                     economy and Government, be protected. These systems include, but are
  Dramatic,          not limited to the following:
 widespread            • Telecommunications
 harm would            • Energy
   result if           • Banking and finance
   Agency              • Transportation
systems were           • Water systems
compromised.           • Facility and personnel security

                       • Federal and private sector emergency services

                     Many of the Nation’s critical infrastructures have historically been
                     physically and logically separate systems that had little interdependence.
                     Through advances in information technology (IT) and improved efficiency,
                     however, these infrastructures have become increasingly automated and
                     interconnected. These same advances have created new vulnerabilities to
                     equipment failures, human error, weather and other natural disasters, and
                     physical cyber-attacks.

                     Addressing these vulnerabilities will require flexible, evolutionary approaches
                     that span the public and private sectors and protect both domestic and
                     international security. The President issued Homeland Security Presidential
                     Directive 7 (HSPD-7) on December 17, 2003 as part of the effort to
                     address the current security climate. It establishes a national policy for
                     Federal departments and agencies to identify and prioritize the Nation’s
                     critical infrastructure and its key resources and how to protect them from
                     terrorist attacks. This directive replaces Presidential Decision Directive
                     (PDD) 63, which had been the basis for national policy on protecting the
                     nation’s critical infrastructure. The information SSA needs to conduct its
                     mission is one of its most valuable assets and a key resource in the nation’s
                     critical infrastructure. The Agency is depending on technology to meet the
                     challenges of increasing workloads with fewer resources. A physically and
                     technologically secure SSA information infrastructure is a fundamental
                     requirement.




page 48   •   Management Issues
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



Growth in computer interconnectivity brings a heightened risk of disrupting
or sabotaging critical operations, reading or copying sensitive data, and
tampering with critical processes. Those intent on disrupting or sabotaging
critical operations have more tools at hand than ever.

SSA’s information security challenge is to understand and mitigate
system vulnerabilities. At SSA, this means ensuring its critical information
infrastructure, such as access to the Internet and the networks, is secure.
By improving systems security and controls, SSA will be able to use current
and future technology more effectively to fulfill the public’s needs. The
public will not use electronic access to SSA services if it does not believe
those systems are secure.

SSA addresses critical information infrastructure and systems security
in a variety of ways. It created a Critical Infrastructure Protection work
group that continually works toward compliance with HSPD-7. SSA has
several other components throughout the organization that handle systems
security including the centrally established Office of Information Technology
Security Policy within the Office of the Chief Information Officer. SSA also
routinely releases security advisories to its employees and has hired outside
contractors to provide expertise in this area.

We are working actively with SSA on the Agency‘s Continuity of Operations
(COOP) Plan and its Critical Infrastructure Protection (CIP) Workgroup. We
have reviewed the security of SSA’s Headquarters Complex and investigated
threats to SSA employees and facilities. Enactment of the Social Security
Protection Act of 2004 into law during this reporting period will provide
our office significant new authority to protect SSA employees, and we are
reviewing our resources to meet the anticipated increases in workload these
provisions mandate.

Our audit and investigative work on critical infrastructure and systems
security issues in this reporting period included the following.

Audit Report: Project Matrix Step Two: Analysis of SSA’s
Headquarters Complex and the Office of Central Operations

Our objective was to complete a Step Two functional analysis of SSA’s
Project Matrix, as developed by the Critical Infrastructure Assurance Office,
to measure the Agency’s compliance with PDD 63 for SSA’s Headquarters
Complex (main campus), and SSA’s Office of Central Operations (OCO),
including OCO’s Office of Disability Operations, Office of Earnings Operations,
and Office of International Operations. This review was performed to
determine dependencies and interdependencies of SSA’s Headquarters
Complex and OCO with other Federal and private organizations, and
possible points of failure.



                                                                   Management Issues •    page 49
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     We noted that SSA’s main campus and OCO facilities have no dependencies
                     that rise to the level of ‘critical’ as defined by Project Matrix Step Two
                     criteria. However, the Agency‘s COOP Plan is essential to the performance
                     of these two assets should a catastrophic event occur. Therefore, SSA needs
                     to continually update, revise, and adequately test its COOP to ensure its
                     performance.

                     This report contained no recommendations. SSA noted that we are an active
                     member of its CIP Workgroup, and that during Workgroup discussions, CIP
                     Workgroup comments and suggestions were incorporated into our report.
                     The Agency indicated it will continue to update, revise, and adequately test
                     the COOP plan to ensure its performance.

                     Investigation: Beneficiary Threatens SSA Doctor

                     Our Chicago Field Division investigated an e-mail message threatening to
                     kill one of SSA’s doctors if the doctor did not sign a form. Our investigators
                     determined that the message came from a man who was receiving
                     disability benefits for personality disorders. His mother was serving as his
                     representative payee, but he wanted to be his own payee. He was sentenced
                     to 2 years’ probation, ordered to pay a $3,000 fine and required to receive
                     mental health treatment.




page 50   •   Management Issues
October 1, 2003 — March 31, 2004                      SSA Office of the Inspector General



Issue 5: Budget and Performance Integration
This area encompasses SSA’s efforts to provide timely, useful and reliable
data to assist internal and external decisionmakers in effectively managing
Agency programs, as well as both evaluating performance and ensuring the
validity and reliability of performance, budgeting, and financial data.

To effectively meet its mission, manage its programs, and report on its
performance, SSA needs sound performance and financial data. Congress,                    To meet
other external interested parties, and the general public also want sound               its mission,
data to monitor and evaluate SSA’s performance. SSA relies primarily on
internally generated data to manage the information it uses to administer               SSA needs
its programs and report to Congress and the public. The necessity for good                 sound
internal data Governmentwide has resulted in the passage of several laws
and regulations to make Government more accountable. The CFO Act, the                  performance
Government Management Reform Act of 1994, and GPRA were passed to                      and financial
create an environment of greater accountability within Federal agencies.
                                                                                            data.
In accordance with GPRA, SSA sets forth its mission and strategic goals in
strategic plans, establishes yearly targets in its annual performance plan,
and reports on its performance annually. Each year, we conduct audits to
assess the reliability of SSA’s performance data and evaluate the extent to
which SSA’s performance plan describes its planned and actual performance
meaningfully.

In addition to performance audits, we perform and monitor audits of
SSA’s financial statements and other financial-related audits of Agency
operations. Our work includes comprehensive technical and administrative
oversight of the annual audit of Agency financial statements, performed by
an independent public accountant. We also perform reviews of the quality
of single audits conducted by State auditors and public accounting firms.
Additionally, we conduct administrative cost audits of State DDSs, which
assist SSA with its disability workload. This body of work helps assess the
validity and reliability of the financial data the Agency relies on to manage
its programs and meet its mission.

The integrity of SSA’s programs and those that rely on Agency information
depends on the reliability and quality of SSA data. External data and data
exchanges are critical to Agency programs and are the focus of many of our
audits. Therefore, it is imperative that SSA’s data be reliable.

Considering the critical role of the underlying data in all of SSA’s performance,
financial, and data-sharing activities, it is crucial that the Agency have clear
processes in place to ensure the reliability and integrity of its data.

In this reporting period, we conducted the following audit work in this
area.


                                                                    Management Issues •      page 51
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     Financial Reviews
                     The Chief Financial Officers’ Act requires OIG or an independent external
                     auditor, as determined by the Inspector General, to audit SSA’s financial
                     statement in accordance with GAO’s Government Auditing Standards. In
                     addition to this requirement, we also conduct other financial-related audits
                     of SSA’s operations and review the single audits conducted by State auditors
                     and public accounting firms.

                     Audit Report: Audit of the FY 2003 and 2002 Financial Statements
                     of SSA and the Results of OIG’s Review Thereof

                     PricewaterhouseCoopers (PwC) performed SSA’s FY 2003 Financial Statement
                     audit. SSA met the Government goal to produce audited statements by
                     November 15, 2003. On November 7, PwC issued an unqualified opinion on
                     SSA’s FY 2003 financial statements. In PwC’s opinion, “…the consolidated
                     and combined financial statements … present fairly, in all material respects,
                     the financial position of SSA at September 30, 2003 and 2002…”

                     However, PwC’s audit report identified a reportable condition in SSA’s
                     internal controls—that SSA needs to further strengthen controls to protect
                     its information. SSA generally agreed with this finding and PwC’s related
                     recommendation.

                     Disability Determination Administrative Cost Audits

                     Disability determinations under SSA’s DI and SSI programs are performed
                     by DDSs according to Federal regulations. The DI program provides benefits
                     to wage earners and their families in the event the wage earner becomes
                     disabled. The SSI program is a nationally uniform program providing
                     income to financially needy individuals who are aged, blind and/or disabled.
                     In accordance with Federal regulations, the DDS in each State or other
                     responsible jurisdiction performs disability determinations of claimants’
                     medical eligibility. SSA reimburses the DDS 100 percent for allowable
                     expenditures.

                     There are 52 DDSs located in the 50 States, the District of Columbia, and
                     Puerto Rico. In FY 2003, SSA allocated over $1.6 billion to fund State DDS
                     operations.

                     During this reporting period, we performed DDS administrative cost audits
                     for the States of Colorado, Georgia, New Mexico, and Texas. The objectives
                     of these audits were to evaluate internal controls over the accounting and
                     reporting of administrative costs, to determine whether costs claimed were
                     allowable, and funds were properly drawn. We also performed a separate
                     audit of indirect costs claimed by the West Virginia DDS.




page 52   •   Management Issues
October 1, 2003 — March 31, 2004                  SSA Office of the Inspector General



Our findings and recommendations relate to the following:

  • Unallowable indirect costs.

  • Ineffective cash management practices.

  • Overstated disbursements and unliquidated obligations.

  • Excessive consultative examination payments.

  • Internal control weaknesses involving accounting for and reporting of
    administrative costs.

In total we reported $11 million in questioned costs and $2 million in funds
put to better use. Most of our recommendations were for the DDSs to
comply with Federal regulations, as well as SSA policies and procedures.




                                                                Management Issues •     page 53
              Semiannual Report to Congress                       October 1, 2003 — March 31, 2004



                     Issue 6: Service Delivery
                     One of SSA’s goals is to deliver high-quality “citizen-centered” service.
                     This goal encompasses traditional and electronic services to applicants for
                     benefits, beneficiaries and the general public. It includes services to and from
                     States, other agencies, third parties, employers, and other organizations
                     ncluding financial institutions and medical providers. This goal also affords
   We must           SSA opportunities to advance its levels of service. Given the complexity
  ensure the         of Agency programs, the billions of dollars in payments at stake, and the
                     millions of citizens who rely on SSA, we must ensure that quality, timely,
   quality of        and appropriate services are consistently provided to the public-at-large.
 SSA’s services      This area includes basic operational services, and the greatest challenges
                     are in the areas of E-Government, the representative payee process, and
 to the public.      human capital.


                     E-Government Challenges
                     The President’s Management Agenda (PMA) also calls for improved service
                     delivery through the use of E-Government in creating more cost-effective
                     and efficient ways to provide service to citizens. The increased use of
                     E-Government will be essential to help address the Agency’s expected
                     future loss of institutional knowledge accompanied by the increased
                     services expected with the aging of the baby-boom generation. Future
                     service delivery challenges include providing electronic services over the
                     Internet and telephone, 24 hours a day, 7 days a week. It will be the norm
                     for business transactions to be processed electronically.

                     Within the next 5 years, the Agency expects to provide cost-effective
                     E-Government services to citizens, businesses and other government
                     agencies that will give them the ability to easily and securely transact
                     most of their business with SSA electronically. The Agency listed in its
                     FY 2003 Performance and Accountability Report 16 strategies and activities
                     it believes will improve service through technology, address the GAO’s
                     major management challenge to “better position SSA for future service
                     delivery challenges, including information technology,” and address the
                     PMA and OIG identified challenge with respect to “Electronic Government/
                     Service Delivery.”


                     Representative Payee Challenges
                     A specific challenge in this area is maintaining the integrity of the
                     representative payee process. When SSA determines a beneficiary cannot
                     manage his/her benefits, SSA selects a representative payee, who must
                     use the payments for the beneficiary’s benefit. There are about 5.3 million
                     representative payees who manage benefit payments for 6.7 million



page 54   •   Management Issues
October 1, 2003 — March 31, 2004                      SSA Office of the Inspector General



beneficiaries. While representative payees provide a valuable service for
beneficiaries, SSA must provide appropriate safeguards to ensure they
meet their responsibilities to the beneficiaries they serve.

Since FY 2001, we have completed numerous audits of representative
payees. Our audits identified:

  • Deficiencies with the financial management of, and accounting for,
    benefit receipts and disbursements.

  • Vulnerabilities in the safeguarding of beneficiary payments.

  • Poor monitoring and reporting to SSA of changes in beneficiary
    circumstances.

  • Inappropriate handling of beneficiary-conserved funds.

  • Improper charging of fees.


Human Capital Challenges
Many agencies, including SSA, share the challenge to address human capital
shortfalls. The critical loss of institutional skills and knowledge, combined
with greatly increased workloads at a time when the baby-boom generation
will require its services, must be addressed by succession planning, strong
recruitment efforts, and the effective use of technology.

In January 2001, GAO added strategic human capital management to its
list of high-risk Federal programs and operations. By 2010, workloads are
anticipated to increase to unprecedented volumes. Along with the workload
increase, the incredible pace of technological change will have a profound
impact on both the public’s expectations and SSA’s ability to meet those
expectations.

At current staffing levels, SSA finds it difficult to maintain an acceptable level
of service, especially in its most complicated workloads. After downsizing
and curtailing investments in human capital (people), the Government is
facing a major challenge to meet the current and emerging needs of the
Nation’s citizens.

The Agency reports its Human Capital and Future Workforce Transition
Plans will continue to serve as the planning and monitoring instruments
in the administration of actions to address this critical vulnerability. As
of December 31, 2003, SSA continued to score “green” in “Progress In
Implementing President’s Management Agenda” on the Executive Branch
Management Scorecard.

Our audit work on service delivery issues in this reporting period included
the following.



                                                                     Management Issues •    page 55
              Semiannual Report to Congress                     October 1, 2003 — March 31, 2004



                     Audit Report: Operations of the Office of Hearings and Appeals
                     Megasite

                     Hearing Offices send folders with unfavorable decisions to the Megasite in
                     Springfield, Virginia. The Megasite serves as OAO’s off-site active claims
                     folder storage facility.

                     Our objective for the review was to evaluate OHA’s Megasite operations,
                     including its case folder inventory system. We tested the Megasite’s
                     physical and computerized inventories and found they were not accurate.
                     We concluded the accuracy and completeness of the physical inventories
                     conducted needed improvement and a physical records management
                     program needs to be developed to provide timely and accurate data on the
                     number of folders and their physical location.

                     Prior to our audit, OHA purchased computer technology and equipment to
                     scan folders using an automated bar coding system. Some of the manual
                     processes we audited have been replaced by the new automation. We plan
                     to review the new system.

                     To address the weaknesses at the Megasite, we recommended it:

                       • Ensure that all folders on the packing lists are sent to the branches.

                       • Ensure that the new information technology provides timely and
                         accurate tracking of folders in the Megasite.

                       • Enhance accountability for records management by collecting
                         information on the number of lost folders, remands due to lost folders
                         and cost to replicate missing documents.

                       • Prepare written procedures for conducting physical inventory counts
                         and for resolving inventory discrepancies.

                       • Retain inventory work sheets for follow-up and quality control
                         purposes.

                     We also recommended that the Megasite develop formal reports detailing
                     the results of the 100 percent inventories and the random inventories
                     showing:

                       • How and when physical inventories are conducted.

                       • Who conducted them.

                       • The start and completion dates.

                       • The count of folders inventoried.

                       • Any discrepancies noted—and assign responsibility to review the
                         reports and verify their accuracy.



page 56   •   Management Issues
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



SSA agreed with our recommendations, and is taking action.

Congressional Response Report: Review of File Assembly Contracts
at OHA

The objectives of our review were to determine whether OHA file assembly
contractors followed the terms of the contracts and had controls in place to
safeguard sensitive information contained in case files. We also
determined whether OHA provided adequate oversight of file
assembly contractor activities.

Within SSA, OHA is responsible for conducting hearings and
issuing decisions as part of determining whether a person may
receive disability-related benefits. When a claimant requests a
hearing, it is held before an administrative law judge (ALJ). The
ALJ conducts the hearing and issues a written decision. Cases
involving disability under the DI and SSI programs account
for 90 percent of OHA’s work. OHA’s organizational structure
includes 10 regional offices and 139 hearing offices.

Some OHA offices use contractors to prepare case files
for review by ALJs. The contractors organize medical documents
chronologically, arrange documents in appropriate sections of the case files,
number documents, identify and retain duplicate documents, and ensure
all pertinent documents are appropriately labeled. As of October 31, 2003,
OHA had 74 file assembly contracts valued at approximately $1.3 million.

During 2003, problems with OHA oversight of file assembly contracts in
an OHA regional office resulted in several media stories and a subsequent
OIG review. As a follow-up to that report and to determine whether similar
problems existed in other OHA offices, Congressman E. Clay Shaw, Jr.,
Chairman of the House Subcommittee on Social Security, requested we
review additional file assembly contracts. To fulfill this request, we selected
one file assembly contract in each of SSA’s 10 regions.

Our review found that:

  • One contractor was removing documents from the case files and placing
    them in a recycle bin to be shredded, which was not in accordance with
    the terms of the contract.

  • OHA did not provide case file assembly training instructions to
    contractors consistent with the terms of the contracts regarding the
    removal of documents from case files.

  • Some OHA offices did not have controls in place to safeguard case
    files because contractors were allowed inappropriate and unsupervised
    access to case files.


                                                                    Management Issues •   page 57
              Semiannual Report to Congress                     October 1, 2003 — March 31, 2004



                     We made no recommendations in our report to the Chairman, but plan to
                     make recommendations in another report to the Agency.

                     Audit Report: Suitability of Individuals Acting as Representative
                     Payees

                     Our objective was to determine whether SSA had adequate controls to
                     identify and prevent individuals who have representative payees from
                     serving as representative payees for other beneficiaries.

                     We have previously reported that beneficiaries who had representative
                     payees themselves were serving as representative payees, despite SSA
                     policy prohibiting this practice. In response to our report, the Agency
                     changed the Representative Payee System (RPS) to generate an alert
                     during the representative payee application process and an adjudicative
                     edit during the selection process when an applicant is a beneficiary with a
                     representative payee or the applicant is trying to become a representative
                     payee for a beneficiary serving as a representative payee. These changes
                     were designed to prevent the completion of such a representative payee
                     appointment. Additionally, SSA initiated a review of over 4,600 potential
                     instances of beneficiaries with representative payees who were also serving
                     as representative payees. This work was performed in two phases—in
                     September 2001 and June 2002.

                     Our review revealed that the Agency did not identify all unsuitable
                     representative payee applications. Additionally, while SSA attempted to
                     identify and correct all cases of beneficiaries with representative payees
                     who serve as payees, we found that the Agency’s initiative did not identify
                     all such cases. Based on our review of 200 sample cases, it was estimated
                     that approximately 1,730 individuals had representative payees and
                     were representative payees for other beneficiaries at the same time. We
                     concluded that if these representative payees are not changed, they will
                     manage $7.6 million in OASDI or SSI payments over the next 12 months.

                     We confirmed that the Agency has instituted new system enhancements
                     to prevent future beneficiaries with representative payees from becoming
                     representative payees. While we observed within the training module of
                     the RPS that new controls were in place, we identified two cases where
                     beneficiaries with representative payees became representative payees
                     after the date of the system enhancement.

                     We recommended that the Agency:

                       • Review the selection criteria used to identify cases of beneficiaries who
                         have representative payees and are representative payees for other
                         beneficiaries to determine why all such cases were not identified in the
                         two phases of its previous initiatives.


page 58   •   Management Issues
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



  • Identify and correct all current cases of beneficiaries with representative
    payees who serve as representative payees.

  • Conduct periodic reviews to identify and correct any instances where
    beneficiaries who have representative payees are representative
    payees for other beneficiaries and determine whether any additional
    actions are required to prevent future cases from being processed.

SSA agreed with all of our recommendations and has already taken action to
implement our first two recommendations. For the third recommendation,
SSA plans to conduct the next periodic review in August 2004.

Evaluation: Conserved Funds for Deceased Beneficiaries with Non-
Related Representative Payees

Our objective was to assess the effectiveness of SSA’s oversight of non-
related representative payees’ disposition of conserved funds for deceased
beneficiaries.

SSA provides benefits to the most vulnerable members of society—the
young, the elderly, and the disabled. Congress granted SSA the authority
to appoint representative payees for those beneficiaries judged incapable
of managing OASDI and SSI benefit payments. Organizational or individual
representative payees receive and manage these payments for the
beneficiary’s needs.

When a beneficiary dies, SSA informs the representative payee that any
conserved funds belong to the deceased beneficiary’s estate and should
be forwarded to the legal representative for disposition under State law. If
there is no legal representative, the representative payee should contact
the State probate court in the State in which the beneficiary resides.

SSA has oversight policy for disposition of living beneficiaries’ conserved
funds by representative payees. However, SSA’s oversight of the disposition
of deceased beneficiaries’ conserved funds needs improvement. SSA staff
advised us that under current policy the Agency has no responsibility to
determine the disposition of conserved funds for deceased beneficiaries. SSA
did not determine whether non-related representative payees complied with
SSA’s instructions to forward conserved funds to the legal representatives
for deceased beneficiaries’ estates for disposition under State law. For
FY 2002, non-related representative payees reported $4.6 million in
conserved funds for deceased beneficiaries to the Agency. SSA does not
determine whether these funds were disposed of appropriately.

We recommended and SSA agreed to:




                                                                   Management Issues •    page 59
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                       • Modify its site review procedures to include reviews of deceased
                         beneficiaries’ conserved funds held by non-related representative
                         payees.

                       • Remind non-related representative payees during site reviews of
                         the policy for proper disposition of conserved funds for deceased
                         beneficiaries.

                     We also recommended SSA develop specific policy to define the oversight
                     responsibilities of non-related representative payees’ disposition of
                     conserved funds after the death of a beneficiary. The Agency disagreed with
                     this recommendation, commenting, “Under the Social Security Act, SSA
                     does not have an oversight responsibility after the death of a beneficiary,
                     and therefore, our authority is limited.” However, the Agency said it would
                     “modify instructions to require our reviewers, when conducting onsite
                     reviews, to remind representative payees of the requirement to turn over
                     conserved funds, and to ask representative payees if they have turned over
                     conserved funds, to a deceased beneficiary’s estate.” SSA’s actions are
                     responsive to the intent of our recommendation.

                     Audit Report: San Francisco Department of Human Services - An
                     Organizational Representative Payee for SSA

                     Our objectives were to determine whether the San Francisco Department of
                     Human Services (SFDHS):

                       • Had effective safeguards over the receipt and disbursement of Social
                         Security benefits.

                       • Used and accounted for Social Security benefits in accordance with
                         SSA policies and procedures.

                     Generally, SFDHS:

                       • Had effective safeguards over the receipt and disbursement of Social
                         Security benefits.

                       • Ensured Social Security benefits were used in accordance with SSA’s
                         policies and procedures.

                     However, SFDHS did not always report Foster Care Program payments, notify
                     SSA of changes in custody, identify excess resources, cancel unnegotiated
                     checks, conserve excess funds, maintain individual accounts, and properly
                     title the bank account for its beneficiaries. In addition, SSA did not update
                     the RPS to accurately reflect the beneficiaries in SFDHS’ care.

                     During our audit, SFDHS refunded $143,520 in overpayments to SSA. We
                     recommended that SSA direct SFDHS to:




page 60   •   Management Issues
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General



  • Refund $15,364 in additional overpayments and $12,733 in beneficiary
    funds.

  • Establish $8,214 in conserved funds.

  • Amend the title of its bank account for child beneficiaries.

  • Develop procedures to ensure the Social Security benefits are properly
    accounted for.

In addition, we recommended that SSA update the RPS to include all
beneficiaries for whom SFDHS was selected as representative payee. SSA
and SFDHS agreed with our recommendations.

The following are examples of our successful investigations involving service
delivery during this reporting period:

Investigation: Missing Girl’s Ex-Guardian Gets 8-Year Term

Our Richmond Field Division helped the Henrico County [Virginia] Police
Department investigate the case of a missing girl—an AIDS patient who
is 10 if still alive—left in the care of her guardian/representative payee in
August 2000. The representative payee cashed the child’s monthly checks
for nearly 2½ years after the girl was no longer in her care and refused
to cooperate in nationwide efforts to find the girl. Our investigators found
that the guardian concealed that the child—whose whereabouts remain
unknown—was not in her custody after July 2000.

The investigation revealed that the representative payee used the SSA funds
to build an addition to her residence and for other personal expenses. The
guardian also made false statements to SSA regarding the use of the SSA
benefits. As a result, she received $16,041 to which she was not entitled.
A Federal judge found her crimes egregious enough to impose a sentence
of 8 years in prison, much longer than prescribed in Federal guidelines,
commenting, “While masquerading as a good Samaritan, you were using
a victim to perpetrate a fraud on society.” The woman has already paid
back the $16,041 in Social Security payments, and was also ordered to
repay 12 members of a church who donated a total of $440 to help the girl,
and to pay the Department of Housing and Urban Development $550 she
received on her behalf. Our office, the FBI, and local authorities continue to
investigate the child’s disappearance.

Investigation: Representative Payee Collects for Fictitious Children

Agents of our Atlanta Field Division and the St. Petersburg Police
Department arrested a Florida woman who had been a Federal fugitive
for over a year. Our investigators determined that she stole the identity



                                                                   Management Issues •    page 61
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004



                     of a former acquaintance and obtained a North Carolina identification
                     card in that name. Then she “created” 2 children by providing false birth
                     certificates to SSA to receive SSNs for them. Next the subject altered court
                     marriage and divorce documents to falsely claim to have been married to a
                     known deceased man she said was the children’s father. She applied for and
                     received SSA survivors benefits on behalf of the fictitious children as their
                     representative payee. We found that the woman had previously perpetrated
                     the same scheme, collecting SSA survivors benefits for herself and another
                     fictitious child. The investigation revealed 5 false identities she used to
                     obtain valid SSNs to open bank accounts and private mailboxes for the SSA
                     funds. She was sentenced to 27 months of incarceration and ordered to pay
                     SSA restitution of $79,627. The sentence also requires her to participate in
                     a Federal Bureau of Prisons drug rehabilitation program.

                     Investigation: Father’s Fraud Nets 2-Year Sentence

                     Our Chicago Field Division investigated a man who was his son’s
                     representative payee. Our investigators learned that the man received
                     $4,183 in SSI overpayments as a result of repeatedly filing for
                     non-receipt of his son’s monthly SSI benefit checks. He was incarcerated for
                     2 years, ordered to pay full restitution to SSA, and replaced as his son’s
                     representative payee.

                     Investigation: Payee Collects for Absent SSI Recipient

                     Our Chicago Field Division determined that a representative payee failed
                     to report that she continued to receive SSI payments on behalf of an
                     SSI recipient who had been removed from her care and custody. The
                     representative payee continued to receive SSI payments on his behalf that
                     were not due, as well as legitimate SSI benefits that she misused over a
                     2-year period. This concealment resulted in the recipient being overpaid.
                     She was given a 4-year suspended sentence and ordered to pay full
                     restitution of $10,904 to SSA.



                     A Special Thank You

                     The diligent work, outstanding efforts, and many contributions of our
                     entire OIG staff make the numerous accomplishments highlighted in this
                     Semiannual Report possible. We would like to thank them for their dedicated
                     spirit and many successes.




page 62   •   Management Issues
October 1, 2003 — March 31, 2004       SSA Office of the Inspector General




                          Appendices




                                                              Appendices     •   page 63
                     Semiannual Report to Congress                                       October 1, 2003 — March 31, 2004




  Appendix A

  Resolving Audit Recommendations
  The following chart summarizes Social Security Administration’s (SSA) responses to our
  recommendations for the recovery or redirection of questioned and unsupported costs.
  Questioned costs are those costs that are challenged because of a violation of law, regulation,
  etc. Unsupported costs are those costs that are questioned because they are not justified by
  adequate documentation. This information is provided in accordance with Public Law (P.L.)
  96-304 (the Supplemental Appropriation and Recession Act of 1980) and the Inspector
  General Act of 1978, as amended.


                            Reports with Questioned Costs for the Reporting Period
                                   October 1, 2003 through March 31, 2004

                                                                          Number     Value Questioned         Value Unsupported

       A. For which no management decision had been made by the
          commencement of the reporting period.                             7           $39,525,243                    $705,388

       B. Which were issued during the reporting period.                    9a          $10,786,353                 $2,734,665

                            Subtotal (A + B)                                16          $50,311,596                 $3,440,053

          Less:


       C. For which a management decision was made during the
          reporting period.                                                10b          $43,612,859                      $74,115

          i.    Dollar value of disallowed costs.                           6           $37,409,656                      $74,115

          ii.   Dollar value of costs not disallowed.                       4             $6,203,203                               0

       D. For which no management decision had been made by the
          end of the reporting period.                                      8             $6,698,737                $3,365,938


  a.    See Reports with Questioned Costs in Appendix B of this report.
  b.    Administrative Costs Claimed by the Colorado Disability Determination Services (DDS) (A-15-03-13044, 12/11/03) contained
        dollars that were disallowed and dollars not disallowed. Additionally, a management decision was made for only a portion of the
        questioned costs contained in the report.




page 64         •   Appendices
October 1, 2003 — March 31, 2004                                         SSA Office of the Inspector General




The following chart summarizes SSA’s response to our recommendations that funds be put to
better use through cost avoidances, budget savings, etc.


              Reports with Recommendations that Funds Be Put to Better Use for the
                    Reporting Period October 1, 2003 through March 31, 2004

                                                                                   Number            Dollar Value

     A. For which no management decision had been made by the
        commencement of the reporting period.                                         5               $139,633,828

     B. Which were issued during the reporting period.                                5a              $117,934,820

                         Subtotal (A + B)                                             10              $257,568,648

        Less:


     C. For which a management decision was made during the reporting
        period.

         i.   Dollar value of recommendations that were agreed to by
              management.


              (a) Based on proposed management action.                                6                   $9,498,039

              (b) Based on proposed legislative action.                               0                                0

        ii.   Dollar value of costs not agreed to by management.                      3               $139,460,748

                         Subtotal (i + ii)                                            9b              $148,958,787

     D. For which no management decision had been made by the end of the
        reporting period.                                                             2               $108,609,861


a.    See Reports with Funds Put to Better Use in Appendix B of this report.
b.    SSA agrees with a portion of the monies recommended in the report, Administrative Costs Claimed by the New Mexico DDS
      (A-06-03-13016, 10/2/03).




                                                                                                Appendices      •   page 65
                Semiannual Report to Congress                                 October 1, 2003 — March 31, 2004




  Appendix B

  Reports Issued

                                Reports with Non-Monetary Findings
                               October 1, 2003 through March 31, 2004

          CIN                                           Report                                      Issue Date

                     Management Advisory Report: Single Audit of the State of Maryland for the
   A-77-04-00001                                                                                     10/23/03
                     Fiscal Year Ended June 30, 2002

                     Management Advisory Report: Single Audit of the State of Illinois for the
   A-77-04-00002                                                                                     10/23/03
                     Fiscal Year Ended June 30, 2002

   A-03-04-24049     Congressional Response Report: Title II Beneficiaries with Military Earnings    10/27/03


   A-03-03-13026     Follow-Up Review of Employers with the Most Suspended Wage Items                10/30/03

                     Inspector General Statement on the Social Security Administration’s Major
   A-02-04-14034                                                                                     11/6/03
                     Management Challenges

   A-15-03-13068     Oversight of the Fiscal Year 2003 Financial Statement Audit                     11/10/03

                     Congressional Response Report: Operations at the Social Security
   A-13-03-23091                                                                                     11/14/03
                     Administration’s Milwaukee, Wisconsin, Office of Hearings and Appeals

                     Management Advisory Report: Single Audit of the State of California for the
   A-77-04-00003                                                                                     11/19/03
                     Fiscal Year Ended June 30, 2002

                     Management Advisory Report: Single Audit of the State of Colorado for the
   A-77-04-00004                                                                                     12/2/03
                     Fiscal Year Ended June 30, 2002

   A-03-02-22076     Utility of Older Reinstated Wages from the Earnings Suspense File               12/17/03

                     Management Advisory Report: The Social Security Administration’s
   A-05-03-23056                                                                                     12/17/03
                     Procedures for Enumerating Foreign Students

                     Management Advisory Report: Fiscal Year 2003 Quick Response Activities
   A-13-04-14055                                                                                     12/17/03
                     Summary Report

                     Performance Audit of the Social Security Administration’s Main Complex
   A-15-03-23043                                                                                     12/17/03
                     Guard Contract

   A-08-04-24079     Management Advisory Report: Security Features on the Social Security Card       12/18/03

                     Congressional Response Report: Chicago Regional Office of Hearings and
   A-13-04-24045                                                                                      1/5/04
                     Appeals Claimant Medical Files

   A-12-02-12015     Appeals Council Process Improvement Action Plan                                 1/21/04

                     Management Advisory Report: Single Audit of the State of New York for the
   A-77-04-00005                                                                                     1/21/04
                     Fiscal Year Ended March 31, 2002

                     Internal Control Review over the Processing of Social Security Number Cards
   A-15-03-23025                                                                                     1/29/04
                     (Limited Distribution)

                     Management Advisory Report: Current Practices in Electronic Records
   A-04-04-24004                                                                                      2/3/04
                     Authentication




page 66    •    Appendices
October 1, 2003 — March 31, 2004                             SSA Office of the Inspector General




                            Reports with Non-Monetary Findings
                           October 1, 2003 through March 31, 2004

     CIN                                            Report                                      Issue Date


 A-12-03-13039   Operations of the Office of Hearings and Appeals Megasite                          2/3/04

                 Controls over the Social Security Administration’s Processing Center Action
 A-14-03-23076                                                                                      2/3/04
                 Control System

                 Management Advisory Report: Single Audit of the State of New Hampshire
 A-77-04-00006                                                                                      2/4/04
                 for the Fiscal Year Ended June 30, 2002

                 Management Advisory Report: Single Audit of the State of Georgia for the
 A-77-04-00007                                                                                      2/25/04
                 Fiscal Year Ended June 30, 2002

                 Congressional Response Report: Review of File Assembly Contracts at Office
 A-07-04-24076                                                                                      3/3/04
                 of Hearings and Appeals

                 The Social Security Administration’s Regional Office Procedures for
 A-06-03-13075                                                                                      3/8/04
                 Addressing Employee-Related Allegations in Region VI
                 Cabinet for Families and Children, Department for Community Based
 A-08-03-13084   Services, Division of Protection and Permanency - An Organizational                3/10/04
                 Representative Payee for the Social Security Administration

 A-14-04-14057   Evaluation of the Accelerated eDib System - Fifth Assessment                       3/10/04

                 The Social Security Administration’s Oversight of Indirect Costs Claimed by
 A-07-03-23086                                                                                      3/16/04
                 Disability Determination Services

                 Conserved Funds for Deceased Beneficiaries with Non-Related
 A-13-03-23085                                                                                      3/18/04
                 Representative Payees

                 Management Advisory Report: Single Audit of the State of Rhode Island for
 A-77-04-00008                                                                                      3/18/04
                 the Fiscal Year Ended June 30, 2002

                 Management Advisory Report: Single Audit of the State of Maine for the
 A-77-04-00010                                                                                      3/24/04
                 Fiscal Year Ended June 30, 2002

                 Interim Assistance Reimbursement to Los Angeles County, California, Under
 A-13-02-12039                                                                                      3/25/04
                 the Supplemental Security Income Program

                 Project Matrix Step Two: Analysis of the Social Security Administration’s
 A-14-04-24006                                                                                      3/25/04
                 Headquarters Complex and the Office of Central Operations

                 Management Advisory Report: Single Audit of the State of West Virginia for
 A-77-04-00011                                                                                      3/25/04
                 the Fiscal Year Ended June 30, 2002

                 Congressional Response Report: Allegations of Mismanagement at the Falls
 A-13-04-24081                                                                                      3/26/04
                 Church, Virginia Office of Hearings and Appeals

                 Congressional Response Report: The Social Security Administration’s
 A-13-04-24083                                                                                      3/26/04
                 Relocation of the District Office in Jackson, Tennessee

                 Management Advisory Report: Single Audit of the State of West Virginia for
 A-77-04-00012                                                                                      3/26/04
                 the Fiscal Year Ended June 30, 2001




                                                                                       Appendices    •   page 67
                Semiannual Report to Congress                             October 1, 2003 — March 31, 2004




                                 Reports with Questioned Costs
                             October 1, 2003 through March 31, 2004

          CIN         Issue Date                             Report                             Dollar Amount

                                   Administrative Costs Claimed by the New Mexico Disability
   A-06-03-13016       10/2/03                                                                       $33,495
                                   Determination Services
                                   San Francisco Department of Human Services – An
   A-09-03-13011       11/19/03    Organizational Representative Payee for the Social               $179,831
                                   Security Administration
                                   Impact on the Social Security Administration’s Programs
   A-01-03-33020       11/26/03    When Auxiliary Beneficiaries Have Incorrect Social             $1,172,288
                                   Security Numbers
                                   Indirect Costs Claimed by the West Virginia Disability
   A-07-03-23072       12/4/03                                                                      $101,815
                                   Determination Services

                                   Administrative Costs Claimed by the Colorado Disability
   A-15-03-13044       12/11/03                                                                   $2,683,614
                                   Determination Services

                                   Administrative Costs Claimed by the Georgia Disability
   A-15-01-11021        2/6/04                                                                    $4,227,701
                                   Adjudication Services

   A-02-03-23080       2/18/04     Social Security Funds Held in Dormant Bank Accounts            $1,145,893

                                   Management Advisory Report: Consulting and Professional
   A-77-04-00009        3/5/04     Service Costs Claimed by Kansas Advocacy and Protective            $5,188
                                   Services Incorporated
                                   Administrative Costs Claimed by the Texas Disability
   A-15-02-12051        3/11/04                                                                   $3,971,193
                                   Determination Services

                                                                                      Total:    $13,521,018




                              Reports with Funds Put to Better Use
                             October 1, 2003 through March 31, 2004

          CIN         Issue Date                             Report                             Dollar Amount

                                   Administrative Costs Claimed by the New Mexico Disability
   A-06-03-13016       10/2/03                                                                    $1,660,004
                                   Determination Services

   A-02-03-13032       10/6/03     Suitability of Individuals Acting as Representative Payees     $7,630,392

                                   Administrative Costs Claimed by the Georgia Disability
   A-15-01-11021        2/6/04                                                                      $209,861
                                   Adjudication Services

   A-07-04-20426       2/18/04     Inventory Review at the National Records Center                   $34,563

                                   Social Security Administration Controls over the Taxation
   A-14-03-23005        3/3/04                                                                  $108,400,000
                                   and Suspension of Payments to Foreign Beneficiaries

                                                                                      Total:    $117,934,820




page 68    •    Appendices
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General



Appendix C

Reporting Requirements Under the Omnibus Consolidated
Appropriations Act for Fiscal Year 1997
To meet the requirements of the Omnibus Consolidated Appropriations Act for 1997,
P.L. 104-208, we are providing requisite data for the first half of fiscal year (FY) 2004 from the
Offices of Investigations and Audit in this report.


Office of Investigations
We are reporting $33,023,602 in SSA funds as a result of our investigative activities in this
reporting period. These funds are broken down in the table below.


                                   Investigative Activities

                              1st Quarter             2nd Quarter                   Total

 Court Ordered
                                   $5,730,230               $6,345,622              $12,075,852
 Restitution
 Scheduled
                                   $9,652,904              $10,391,820              $20,044,724
 Recoveries

 Fines                               $175,754                 $139,763                     $315,517

 Settlements/
                                     $510,668                  $76,841                     $587,509
 Judgments

 TOTALS                         $16,069,556              $16,954,046               $33,023,602



Office of Audit
SSA management has informed us that it has completed implementing recommendations
from 5 audit reports during this time period valued at over $84 million.

SSA’s Processing of Internal Revenue Service (IRS) Overstated Wage Referrals
(A-03-02-22068, 3/18/03)

We recommended that SSA begin processing IRS referrals, starting with the referrals that are
most likely to:

  • Reduce overpayments, such as those related to individuals closer to retirement age.

  • Minimize identity theft, such as those with higher disputed wages over multiple tax years.

The implemented recommendation is valued at over $41 million.


                                                                            Appendices      •   page 69
              Semiannual Report to Congress                     October 1, 2003 — March 31, 2004




  Administrative Costs Claimed by the New Mexico Disability Determination Services
  (NM DDS) (A-06-03-13016, 10/2/03)

  We recommended that SSA use standardized consultative examination (CE) fee schedules
  that consider the limits set by Federal regulations and monitor the adequacy of CE fees as
  required by the Program Operations Manual System. The State paid CEs in excess of Medicare
  rates for a projected $467,035 for FY 2000 and $245,781 for FY 2001. The implemented
  recommendation is valued at $712,816.

  We also recommended that SSA review unliquidated obligations at least once a month to
  cancel those no longer valid. The reviews should be conducted until all unliquidated obligations
  are resolved and the grant is closed. The NM DDS carried unliquidated obligations totaling
  $234,545, $135,933, and $175,446 for FYs 1999, 2000, and 2001 respectively that were not
  needed for program operations. The implemented recommendation is valued at $545,924.

  Finally, we recommended that SSA reduce the Automated Standard Application for Payments
  funding authority by $94,386 for FY 1999, $138,282 for FY 2000, and $168,596 for FY 2001.
  The implemented recommendation is valued at $401,264.

  Administrative Costs Claimed by the Illinois Bureau of Disability Determination
  Services (A-05-02-22019, 8/18/03)

  We recommended that SSA improve its oversight of consultative examination fees and limit
  future payments to the highest rate allowable by Federal or other State agencies in Illinois.
  The implemented recommendation is valued at over $1.2 million.

  Administrative Costs Claimed by the Hawaii Disability Determination Services
  (HI DDS) (A-09-03-13012, 9/4/03)

  We recommended that SSA ensure HI DDS improves the methods used to record unliquidated
  obligations for medical costs so that future estimates more accurately reflect the amounts
  needed for valid expenditures. The implemented recommendation is valued at $218,069.

  Old-Age, Survivors and Disability Insurance (OASDI) Benefits Paid to Fugitives
  (A-01-00-10014, 8/29/00)

  We recommend that SSA pursue legislation prohibiting payment of OASDI benefits to fugitives
  similar to the provisions pertaining to Supplemental Security Income (SSI) payments under
  P. L. 104-193. The implemented recommendation is valued at over $39 million.




page 70   •   Appendices
October 1, 2003 — March 31, 2004                                    SSA Office of the Inspector General



Appendix D

Collections From Investigations and Audits
The Omnibus Consolidated Appropriations Act for 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and offsets achieved as a
result of Office of the Inspector General (OIG) activities each semiannual period.


Office of Investigations

                     Total Restitution Reported by the Department of Justice
                        as Collected for the Social Security Administration

                       Total Number of
                                                                Court Ordered
     Fiscal          Individuals Assigned                                                Total Restitution
                                                                  Restitution
     Year               Court Ordered                                                    Collected by DOJ
                                                                for This Period
                          Restitution

 2002                                             600                    $18,068,423                      $2,643,872


 2003                                             567                    $22,354,434                      $2,184,770


 2004                                             366                    $12,075,852                       $536,483a

 TOTALS                                        1,533                    $52,498,709                   $5,365,125

a. Reflects collection for October1, 2003-December 31, 2003.




                            Funds Received by the Office of Investigations
                                     Based on Recovery Actions

                                                                                           Actual Amount
                        Total Number of
     Fiscal                                                    Amount Scheduled             Recovered at
                        Recovery Actions
     Year                                                        for Recovery             the Close of the
                            Initiated
                                                                                           Investigation

 2002                                           2,202                    $29,434,025                      $8,765,025


 2003                                           2,442                    $31,515,050                      $9,025,423


 2004                                           1,096                    $20,044,724                      $6,612,198


 TOTALS                                        5,740                    $80,993,799                 $24,402,646




                                                                                           Appendices       •   page 71
                     Semiannual Report to Congress                            October 1, 2003 — March 31, 2004




  Office of Audit
  The following chart summarizes the Agency’s responses to our recommendations for the
  recovery or redirection of questioned and unsupported costs. This information is prepared in
  coordination with the Agency’s management officials and is current as of March 31, 2004.



                        Responses to OIG’s Recommendations for the Recovery or
                            Redirection of Questioned and Unsupported Costs

                    Number of
                                  Questioned/                        Amount            Amount
                   Reports with                  Management
        FY                        Unsupported                   Collected or to be   Written-Off/    Balance
                   Questioned                    Concurrence
                                     Costs                          Recovered        Adjustments
                      Costs


       2002            13          $15,551,282     $7,515,730        $8,276,020        $8,041,929              0


       2003            18          $56,602,321    $52,297,168      $17,158,531         $3,057,526    $36,428,373


       2004a            9          $13,521,018       $552,200          $239,251        $4,248,168     $9,071,883


   TOTALS              40         $85,674,621    $60,365,098      $25,673,802        $15,347,623    $45,500,256


  a.    October 1, 2003 to March 31, 2004




page 72        •    Appendices
October 1, 2003 — March 31, 2004             SSA Office of the Inspector General



Appendix E

Significant Monetary Recommendations From Prior Fiscal Years for
Which Corrective Actions Have Not Been Completed
There are no significant monetary recommendations from prior FYs for which corrective
actions have not been completed.




                                                                    Appendices     •   page 73
              Semiannual Report to Congress                     October 1, 2003 — March 31, 2004




  Appendix F

  Significant Non-Monetary Recommendations From Prior Fiscal Years
  for Which Corrective Actions Have Not Been Completed

  SSA’s Management of Congressional Inquiries (A-13-02-12011, 9/23/02)

  Recommendation: We recommended that SSA develop and implement an Agency-wide
  information system that incorporates current technology to control, monitor, and track all
  congressional inquiries.

  Agency Response: SSA agreed with the recommendation.

  Corrective Action: On August 13, 2002, the Agency awarded two Blanket Purchase Agreements
  (BPA) to facilitate this activity. The first was for software licenses and maintenance for the
  Open Text Livelink product and related modules. This commercial document management
  and workflow software product will form the core of SSA’s nationwide Assignment and
  Correspondence Tracking (ACT) application. The second BPA was awarded for the services
  and support required to design, develop and implement ACT. Orders have been placed against
  both BPAs and work has begun. The initial rollout of ACT is expected to occur during the fourth
  quarter of FY 2004.

  Impact on the Social Security Administration’s Programs When Auxiliary
  Beneficiaries Do Not Have Their Own Social Security Numbers (SSN)
  (A-01-02-22006, 9/20/02)

  Recommendation: We recommended that SSA generate reports of auxiliary beneficiaries with
  missing Beneficiary’s Own Account Number (BOAN) alerts that have not been cleared timely
  to a higher level of management.

  Agency Response: SSA agreed with the recommendation.

  Corrective Action: The reports will require systems programming. The Office of Operations has
  submitted an Information Technology (IT) template to the Office of Systems (DCS) to track
  the volume of missing BOAN alerts by region and field office. On April 9, 2003, the Offices of
  Operations and Systems met to discuss the planning and analysis for the template that will
  be used to implement this recommendation. On October 23, 2003, DCS submitted a Project
  Scope Agreement for Associate Commissioner signoff, which was approved by all components
  in December 2003.

  Effectiveness of the Social Security Administration’s Death Termination Process
  (A-09-02-22023, 9/17/02)

  Recommendation: We recommended that SSA modify its automated systems to support
  Electronic Death Registration (EDR), including the on-line verification of SSN, processing



page 74   •   Appendices
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General




of verified and unverified State death reports, and termination of benefits upon receipt of
verified State death reports.

Agency Response: SSA agreed and will continue to work on systems support for EDR. EDR is
an initiative under eVital, one of 24 Governmentwide eGovernment initiatives.

Corrective Action: The Internet Verification “front-end” phase was completed in December
2002. Testing of the front-end SSN verification for electronic death reporting is in progress
with both South Dakota and New Hampshire. DCS is working towards production connectivity
in early FY 2004. Issues with both States are being worked through. Additionally, SSA is
working with Washington, D.C. and Montana to establish production connections for front-
end verification in 2004. Planning for New York City and Minnesota is occurring for production
access to the front-end SSN verification system in September 2004.

SSA’s  Employee    Verification          Service     (EVS)     for    Registered      Employers
(A-03-02-22008, 9/12/02)

Recommendation: We recommended that SSA modify EVS to detect SSNs for deceased
individuals, provide appropriate notification to employers, and issue an alert for necessary
action by SSA staff.

Agency Response: SSA agreed with the recommendation.

Corrective Action: Two proposals to identify if a death indicator is present on an SSN verification
request via EVS were submitted through the IT priority process. DCS is currently developing
software to implement the death indicator for verifications for employers. Modifications will
be made to the Social Security Number Verification Service (SSNVS) and the batch EVS
routine used by employers so that the response includes an indicator when the NUMIDENT
contains death information for a verified name/SSN. Systems implemented software changes
on January 2, 2004 to process the new SSNVS files. Changes to the batch EVS routine are
scheduled for implementation in early 2004.

Recommendation: We recommended that SSA modify EVS to detect SSNs for individuals
in nonwork status, provide appropriate notification to employers, and issue an alert for
necessary action by SSA staff.

Agency Response: SSA agreed with the recommendation.

Corrective Action: Two proposals to identify if a death indicator is present on an SSN verification
request via EVS and SSNVS were submitted through the IT priority process. However, the
Commissioner has decided not to include nonwork information in the verification process.

SSA Can Recover Millions in Medicare Premiums Related to Retirement or Disability
Payments Made after Death (A-08-02-12029, 7/3/02)

Recommendation: We recommended that SSA establish a committee with Center for Medicare
and Medicaid Services (CMS) officials to discuss procedures and practices for recovering
Medicare premiums and work toward a joint resolution of the issue.



                                                                            Appendices     •   page 75
              Semiannual Report to Congress                     October 1, 2003 — March 31, 2004




  Agency Response: SSA agreed with the recommendation.

  Corrective Action: The Office of Disability and Income Security Programs (ODISP) chaired an
  interagency videoconference in November 2002 with CMS executives and staff to discuss the
  OIG report and recommendations. SSA executives and staff were present at that meeting
  from the Office of Finance, Assessment and Management (DCFAM), DCS and the Office of the
  Actuary (OACT).

  In July 2003, SSA and CMS staff met to discuss the methodology used by SSA to develop an
  estimate for the period 1966-2002. On October 31, 2003, SSA released letters to Health and
  Human Services and Treasury identifying the issue and SSA’s intent to disclose the debt as a
  footnote on the FY 2003 financial statements, along with the intention of collecting the debt
  during FY 2004.

  Recommendation: We recommended that if the transfer of unrecovered Medicare premiums is
  determined to be practical and feasible, SSA should establish an accounts receivable amount
  due from CMS for premiums remitted after beneficiaries’ deaths. The amount should include
  premiums already remitted to CMS and those SSA may continue to remit after beneficiaries’
  deaths until a system is in place to prevent such occurrences.

  Agency Response: SSA agreed with the recommendation.

  Corrective Action: Systems changes, put in place January 2003, are identifying current
  unrecovered premium amounts which are netted against amounts transferred to CMS as
  current Supplemental Medical Insurance premiums. Further action on this recommendation is
  expected to be addressed during FY 2004.

  Work Activity for SSNs Assigned for Nonwork Purposes in the State of Utah
  (A-14-01-11048, 3/29/02)

  Recommendation: We recommended that SSA work with Immigration and Naturalization
  Service (INS), now incorporated into the Department of Homeland Security (DHS), to resolve
  data compatibility problems associated with the nonwork earnings file provided by SSA and
  involve employees familiar with the problem.

  Agency Response: SSA agreed with the recommendation.

  Corrective Action: Under the direction of the Enumeration Response Team, a subgroup is
  currently working on a proposal to expand the SSN electronic audit trail to capture information
  that could also be useful in resolving data compatibility problems between SSA and DHS. At
  this time, no milestone activities have been determined.

  Recommendation: We recommended that SSA work to establish an agreement with the Office
  of Child Support Enforcement (OCSE) whereby SSA submits nonwork SSN records to OCSE
  each quarter, and OCSE associates quarterly earnings with the records before returning them
  to SSA.




page 76   •   Appendices
October 1, 2003 — March 31, 2004                    SSA Office of the Inspector General




Agency Response: SSA believes this recommendation may have merit.

Corrective Action: SSA no longer issues an SSN solely for the purpose of securing a driver’s
license or motor vehicle registration. This policy change closes opportunities for illegal work.
In addition, SSA is continuing to work with U.S. Citizenship and Immigration Service (USCIS)
on a number of fronts to improve the enumeration process. Once SSA has assessed the
impact of these activities, SSA will revisit this recommendation and determine how to best
proceed within the constraints of SSA’s disclosure/privacy regulations and policies on working
with and sharing information with OCSE and USCIS for the purposes of identifying persons
who work illegally and employers who hire such persons.

Recommendation: We recommended that SSA use the quarterly wage information or other
suitable methods to prevent the issuance of replacement Social Security cards when there
is evidence of illegal employment and to advise employers of nonwork status when verifying
employee SSNs.

Agency Response: SSA agreed that there should be tighter controls for issuing replacement
cards to aliens who are not authorized to work.

Corrective Action: SSA will investigate the best method for doing that, including the possibility
of issuing revised instructions and reminders on the policy on issuing replacement cards and
on updating Numident records. SSA will also explore appropriate mechanisms for helping
BCIS monitor employment authorization.

Recommendation: We recommended that SSA match the quarterly nonwork earnings file with
the ESF to identify and report to INS (now in DHS) employers who consistently hire people
who are not authorized for employment and individuals who use, for employment, nonwork
SSNs and false identities.

Agency Response: SSA believes this recommendation may have merit.

Corrective Action: SSA will revisit this recommendation once an assessment of the impact of
previously referenced activities that are underway or planned is complete.

Performance Measure Review: Reliability of the Data Used to Measure the Timely
Processing of Disability Insurance Claims (A-02-99-11001, 10/2/01)

Recommendation: We recommended that SSA provide an adequate audit trail to document
the processes involved in the generation and accumulation of the performance measure.

Agency Response: SSA agreed with the recommendation.

Corrective Action: DCS is addressing this issue as it transitions the Management Information
Initial Claims Record functionality to the Title II Workload Management Information System.
A General Project Scope Agreement was agreed upon. The first release went to production on
June 27, 2003 and the second release is on schedule for February 2004. However, processing
times will not be addressed until Release 3 of this effort. Planning and Analysis (P&A) for




                                                                           Appendices     •   page 77
              Semiannual Report to Congress                     October 1, 2003 — March 31, 2004




  release 3 is tentatively scheduled to start in the beginning of calendar year 2004. Once the
  P&A is completed, SSA will be able to provide a projected completion date.

  Audit of Enumeration at Birth Program (A-08-00-10047, 9/27/01)

  Recommendation: We recommended that SSA re-invest some of the savings realized by the
  Enumeration at Birth (EAB) program. This could provide necessary funding, during future
  contract modifications, for the Bureaus of Vital Statistics to perform periodic, independent
  reconciliations of registered births with statistics obtained from hospitals’ labor and delivery
  units, and periodically verify the legitimacy of sample birth records obtained from hospitals.

  Agency Response: SSA agreed in principle with the recommendation.

  Corrective Action: On March 31, 2003, SSA met with the National Association for Public Health
  Statistics and Information System (NAPHSIS). NAPHSIS wants SSA to develop the complete
  audit plan for them including a complete statistically valid sampling plan based on the number
  of birthing hospitals in each State. Once the plan is developed, NAPHSIS would like SSA to tap
  into other sources for funding a full audit program in each State.

  On June 17, 2003, an IT template was prepared for the EAB audit provisions. This plan
  must be approved and submitted for DCS review. SSA developed the complete audit plan
  at NAPHSIS’ request to include a statistically valid sampling method based on the number
  of birthing hospitals in each State. DCO has shared the concept of this plan with NAPHSIS
  executives. NAPHSIS advised that SSA should drop the search for additional Federal funds
  since these were available on a State basis only. DCO recently submitted another IT plan for
  consideration and no decisions have been made to implement these plans at this time.

  Recommendation: We recommended that SSA enhance its duplicate record detection and
  prior SSN detection routines to provide greater protection against the assignment of multiple
  SSNs.

  Agency Response: SSA agreed on the issue of duplicate record detection. SSA also agreed
  that there are cases where a subsequent SSN application is not identified due to minor
  changes in names.

  Corrective Action: For EAB cases, the duplicate record detection routine currently considers
  two SSN applications to be duplicate only if the required data fields match exactly, including
  birth certificate numbers. For example, if the birth certificate numbers for two records are
  different, the records are not treated as possible duplicates even if the other data fields are
  identical. Agreement has been reached to have the routine consider two SSN applications
  to be duplicate if all of the required data fields match exactly, even if the birth certificate
  numbers are different. The Office of Operations and DCS recently met on the IT plans and no
  decisions were made to implement the plans at this time.

  For non-EAB cases, DCS staff met and discussed this recommendation and determined it would
  be possible to modify the automated enumeration screening process to detect variations in



page 78   •   Appendices
October 1, 2003 — March 31, 2004                   SSA Office of the Inspector General




the spelling of applicant names. However, while this would provide greater protection against
the assignment of multiple SSNs, there would be undesirable consequences. It would create
delays in the processing of multiple birth cases. The envisioned routine would catch some,
but not all, of the 93 multiple SSN examples we cited. The findings have been shared with the
user community.

Payments Made to Selected Representative Payees after the Deaths of Social
Security Beneficiaries (A-13-01-21028, 9/18/01)
Recommendation: We recommended that SSA resolve beneficiary date-of-death discrepancies
we identified and develop and implement procedures for the timely and accurate recordation
of dates of death.

Agency Response: SSA has already begun to correct the records containing date of death
discrepancies.

Corrective Action: SSA will review the procedures the payee has implemented to ensure
compliance with its regulations and to prevent future occurrences of this nature. In addition, a
new Death Alert, Control and Update System process is scheduled to be completed in FY 2004
which will identify deceased representative payees in the Representative Payee System.

Approval of Claimant Representatives and Fees Paid to Attorneys
(A-12-00-10027, 8/21/01)

Recommendation: We recommended that SSA collect each attorney’s SSN, name and address
information so IRS Form 1099 can be issued to attorneys.

Agency Response: SSA’s Executive Task Force is addressing the issue of providing IRS Form
1099 to attorneys and is developing a business process for issuing these forms.

Corrective Action: The Executive Task Force has established a target of issuing Form 1099
to attorneys in January 2005 (representing attorneys fees received during tax year 2004).
DCS is currently conducting planning and analysis sessions to plan and develop systems
enhancements necessary to collect the appropriate attorney data and issue the Form 1099.

Audit of SSA’s FY 2001 APP (A-02-00-10038, 6/18/01)

Recommendation: We recommended that SSA coordinate with the CMS to determine which
Agency should establish performance goals for service to Medicare recipients.

Agency Response: SSA will explore the feasibility of establishing such a goal.

Corrective Action: SSA has discussed this recommendation with CMS. At this time an
implementation date has not been set.




                                                                          Appendices     •   page 79
              Semiannual Report to Congress                      October 1, 2003 — March 31, 2004




  SSA Is Pursuing Matching Agreements with New York and Other States Using
  Biometric Technologies (A-08-98-41007, 1/19/00)

  Recommendation: SSA should pursue a matching agreement with New York so that the
  Agency can use the results of the State’s biometric technologies to reduce and/or recover any
  improper benefit payments.

  Agency Comments: SSA agreed with the recommendation.

  Corrective Action: The Office of Disclosure Policy (ODP) developed a draft Computer Matching
  Privacy Protection Act agreement and sent it for component comments in June 2001. ODP
  met with OIG on January 24, 2002 to discuss the outstanding issues that need to be resolved
  before any match is undertaken. There is still a need for a component sponsor, a cost benefit
  analysis, and the development of a detailed workplan. A meeting was held in March 2002 with
  privacy experts to discuss the match and it was determined that a new submission for SSA’s
  Data Integrity Board will be completed with our assistance.

  Subsequent to the March 2002 meeting, SSA completed a new draft proposal and distributed
  the draft for component comment. In reply, there were several specific issues raised
  that needed to be addressed before the proposal is taken to the Data Integrity Board for
  consideration.

  Recommendation: SSA should initiate pilot review to assess the cost efficiency of matching
  data with other States that have employed biometrics in their social service programs.

  Agency Response: SSA agreed with the recommendation.

  Corrective Action: The Claims Folders System of Records (SOR) requires an alteration to the
  “categories of records” section to include the photographs that will be taken during the pilot
  projects. The SOR Federal Register notice was published on April 1, 2003 and the 40-day
  comment period ended May 8, 2003. The handout for pilot participants that explains the pilot,
  why SSA is collecting this information and what SSA will do with the information, has been
  completed and was finalized with the dates of the pilots and other last minute details. The
  pilots involved three regions: Atlanta, Kansas City and New York. The temporary regulation,
  that makes the taking of photographs during the initial claims process for Title II and Title XVI
  disability and blindness benefits mandatory, was published on May 1, 2003 with an effective
  date of May 31, 2003. The Claimant Identification Pilot Projects were implemented June 1,
  2003 and will run through November 2003. The results of these 6-month pilot projects will be
  evaluated and presented to the Commissioner for a decision for expansion.

  These pilots ended on November 30, 2003. SSA is currently analyzing the data and will evaluate
  the results for the pilot for presentation to the appropriate executives within the Agency.
  The Agency will determine if this process should be expanded for national implementation.
  Preliminary results for the evaluation forms indicate that SSA received public reaction for its
  request that a photograph be taken for disability applications in the pilot locations.




page 80   •   Appendices
October 1, 2003 — March 31, 2004                   SSA Office of the Inspector General



Appendix G

Significant Management Decisions With Which the Inspector
General Disagrees

SSA’s Oversight of Indirect Costs Claimed by Disability Determination Services
(A-07-03-23086, 3/16/04)

Recommendation: We recommended that SSA establish an indirect cost oversight process that
ensures adequate technical expertise to evaluate allocation methodologies and to represent
SSA’s interests during the indirect cost negotiation process.

Agency Response: SSA disagreed since it does not believe it should assume comprehensive
audit responsibility for the indirect cost category. SSA stated that establishing an indirect
cost oversight process that ensures adequate technical expertise to evaluate allocation
methodologies and to represent SSA’s interests during the indirect cost negotiation process
appears difficult and wasteful of its limited resources given the stewardship currently
performed by cognizant Federal agencies on indirect costs. SSA also stated that additional
oversight of indirect costs should be performed by the OIG not SSA.

Our Response: We believe that the Agency has a fundamental responsibility to ensure the
effectiveness of internal controls over the indirect costs charged to its disability programs
by DDSs. We did not recommend, nor would we recommend, that the Agency assume
audit responsibility. Office of Management and Budget (OMB) Circular A-123 Management
Accountability and Control, states stewardship of Federal resources is the fundamental
responsibility of each Federal agency. Agency employees must ensure that government
resources are used efficiently and effectively to achieve intended program results. In
addition, the General Accounting Office (GAO) Standards for Internal Controls in the Federal
Government require federal agencies to establish and maintain internal controls to identify
and address areas with the greatest risk of fraud, waste, abuse, and mismanagement.

Management Advisory Report: SSA’s Procedures for Enumerating Foreign Students
(A-05-03-23056, 12/17/03)

Recommendation: We recommended that SSA evaluate and revise the current system to
improve the retention and accessibility of data used in the enumeration process. Specifically,
the Modernized Enumeration System (MES) record should provide unique data fields to
facilitate computerized access and use of the information accumulated during the enumeration
of foreign students.

Agency Response: SSA disagreed. SSA was concerned that the recommendation implied that
it would be involved in the collection of data not related to enumerating foreign students, the
subsequent sharing of that data, and the responsibilities connected to tracking and monitoring
foreign students. There would also be the potential for Privacy Act violations if SSA collected
data not related to administering its programs and/or disclose the data, such as earnings
information, without the proper legal authority.


                                                                          Appendices     •   page 81
              Semiannual Report to Congress                     October 1, 2003 — March 31, 2004




  Our Response: We believe that adding elements to MES would allow the Agency to capture
  additional student data that would benefit SSA programs. We agree that Privacy Act concerns
  need to be addressed and that Agency counsel should be consulted to determine the legality
  of obtaining additional information from foreign students during SSA’s enumeration process.
  Counsel should also be consulted to determine the legal parameters and limitations that will
  govern any sharing of information with other Federal Agencies. We believe the addition of
  these elements will potentially provide information to help DHS carry out its responsibilities.
  Therefore, we provided a copy of our report to the Inspector General of DHS.




page 82   •   Appendices
October 1, 2003 — March 31, 2004                 SSA Office of the Inspector General



Appendix H

Reporting Requirements
This report meets the requirements of the Inspector General Act of 1978, as amended, and
includes information mandated by Congress.

      Section                             Requirement                                  Pages


 Section 4(a)(2)      Review of legislation and regulations                             N/A


 Section 5(a)(1)      Significant problems, abuses, and deficiencies                   4-49


 Section 5(a)(2)      Recommendations with respect to significant
                                                                                       4-49
                      problems, abuses, and deficiencies

 Section 5(a)(3)      Recommendations described in previous Semiannual           Appendices
                      Reports on which corrective actions are incomplete           E&F

 Section 5(a)(4)      Matters referred to prospective authorities and the
                                                                                       4-49
                      prosecutions and convictions which have resulted

 Sections 5(a)(5) &
                      Summary of instances where information was refused                N/A
 Section 6(b)(2)


 Section 5(a)(6)      List of audits                                             Appendix B


 Section 5(a)(7)      Summary of particularly significant reports                      18-49


                      Table showing the total number of audit reports and
 Section 5(a)(8)                                                                 Appendix A
                      total dollar value of questioned costs

                      Table showing the total number of audit reports and
 Section 5(a)(9)                                                                 Appendix A
                      total dollar value of funds put to better use

                      Audit recommendations more than 6 months old for
 Section 5(a)(10)                                                                Appendix A
                      which no management decision has been made

                      Significant management decisions that were revised
 Section 5(a)(11)                                                                       N/A
                      during the reporting period

                      Significant management decisions with which the
 Section 5(a)(12)                                                                Appendix G
                      Inspector General disagrees




                                                                        Appendices      •   page 83
              Semiannual Report to Congress                       October 1, 2003 — March 31, 2004




  Appendix I

  Glossary


          Abbreviation                                      Definition

   ACPI                          Appeals Council Process Improvement Action Plan
   ACT                           Assignment and Correspondence Tracking
   ALJ                           Administrative Law Judge
   BCIS                          Bureau of Citizenship and Immigration Services (DHS)
   BOAN                          Beneficiary’s Own Account Number
   BPA                           Blanket Purchase Agreements
   CDI                           Cooperative Disability Investigations
   CDR                           Continuing Disability Review
   CE                            Consultative Examination
   CFO Act                       Chief Financial Officers Act of 1990
   CIP                           Critical Infrastructure Protection
   CMP                           Civil Monetary Penalty
   CMS                           Center for Medicare and Medicaid Services
   COOP                          Continuity of Operations
   DCFAM                         Office of Finance, Assessment and Management
   DCS                           Office of Systems
   DDS                           (State) Disability Determination Services
   DI                            Disability Insurance
   DMF                           Death Master File
   DHS                           Department of Homeland Security
   DOJ                           Department of Justice
   EAB                           Enumeration at Birth
   EDR                           Electronic Death Registration
   ERT                           Enumeration Response Team
   ESF                           Earnings Suspense File
   EVS                           Enumeration Verification Service




page 84   •   Appendices
October 1, 2003 — March 31, 2004                     SSA Office of the Inspector General




 FBI                         Federal Bureau of Investigation
 FO                          Field Office
 FY                          Fiscal Year
 GAO                         General Accounting Office
 GPRA                        Government Performance and Results Act
 HHS                         Department of Health and Human Services
 HI DDS                      Hawaii Disability Determination Services
 HSPD                        Homeland Security Presidential Directive
 ICE                         Immigration and Customs Enforcement (DHS)
 IG                          Inspector General
 INS                         Immigration and Naturalization Service
 IO                          Immediate Office of the Inspector General
 IRS                         Internal Revenue Service
 IT                          Information Technology
 MBR                         Master Beneficiary Record
 MEF                         Master Earnings File
 MES                         Modernized Enumeration System
 NAPHSIS                     Nat. Assn. for Public Health Statistics and Information System
 NCIC                        National Crime Information Center
 NM DDS                      New Mexico Disability Determination Services
 NWALIEN                     Non-Work Alien
 NYPD                        New York City Police Department
 OA                          Office of Audit
 OACT                        Office of the Actuary
 OAO                         Office of Appellate Operations
 OASDI                       Old-Age, Survivors and Disability Insurance
 OCCIG                       Office of the Chief Counsel to the Inspector General
 OCSE                        Office of Child Support Enforcement
 ODP                         Office of Disclosure Policy
 OEO                         Office of Executive Operations
 OHA                         Office of Hearings and Appeals
 OI                          Office of Investigations
 OIG                         Office of the Inspector General


                                                                            Appendices     •   page 85
               Semiannual Report to Congress                        October 1, 2003 — March 31, 2004




   OMB                            Office of Management and Budget
   OQA                            Office of Quality Assurance and Performance Assessment
   P&A                            Planning and Analysis
   PDD                            Presidential Decision Directive
   P.L.                           Public Law
   PMA                            President’s Management Agenda
   RO                             Regional Office
   RPR                            Representative Payee Reports
   RPS                            Representative Payee System
   SAUSA                          Special Assistant United States Attorney
   SEVIS                          Student and Exchange Visitor Information System
   SFDHS                          San Francisco Department of Human Services
   SOR                            Claims Folders System of Records
   SSA                            Social Security Administration
   SSI                            Supplemental Security Income
   SSN                            Social Security Number
   SSNVS                          Social Security Number Verification Service
   Title II                       Old-Age, Survivors and Disability Insurance
   Title XVI                      Supplemental Security Income
   TY                             Tax Year
   USAO                           United States’ Attorney’s Offices
   USCIS                          U.S. Citizenship and Immigration Service
   USMS                           United States Marshals Service
   WC                             Workers’ Compensation




page 86   •    Appendices
                                                                      H
                                                                      O
                                                                      W

  The SSA OIG Fraud Hotline offers a means for you to provide
                                                                      T
 information on suspected fraud, waste, and abuse. If you know of
current or potentially illegal or improper activities involving SSA
                                                                      O
programs or personnel, we encourage you to contact the SSA OIG
                           Fraud Hotline.
                                                                      R
Call              1-800-269-0271                                      E
Write             Social Security Administration
                  Office of the Inspector General                     P
                  Attention: SSA Fraud Hotline
                  P. O. Box 17768                                     O
Fax
                  Baltimore, MD 21235
                  410-597-0118
                                                                      R
Internet       www.socialsecurity.gov/oig
                                                                      T
To obtain additional copies of this report, visit our website,        F
               www.socialsecurity.gov/oig
                  or call 410-965-3218
                                                                      R
                                                                      A
                                                                      U
                                                                      D
SSA OIG Pub. No. 85-007
  Published May 2004
